<html>
<title> - MEMORIAL ADDRESSES AND OTHER TRIBUTES HON. C.W. BILL YOUNG</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




                            C.W. Bill Young

                       LATE A REPRESENTATIVE FROM

                                FLORIDA



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 
                           MEMORIAL ADDRESSES

                           AND OTHER TRIBUTES


                          HON. C.W. BILL YOUNG



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                               1930-2013







                               Memorial Addresses and

                                   Other Tributes

                        HELD IN THE HOUSE OF REPRESENTATIVES

                                OF THE UNITED STATES

                          TOGETHER WITH A MEMORIAL SERVICE

                                     IN HONOR OF

                                   C.W. BILL YOUNG

                   Late a Representative from Florida

                    One Hundred Thirteenth Congress

                             First Session



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                            Compiled under the direction

                                       of the

                             Joint Committee on Printing














                                      CONTENTS
             Biography.............................................
                                                                      v
             Proceedings in the House of Representatives:
                Tributes by Representatives:
                    Bilirakis, Gus M., of Florida..................
                                                                 11, 33
                    Bishop, Sanford D., Jr., of Georgia............
                                                                     10
                    Brown, Corrine, of Florida.....................
                                                                  6, 16
                    Buchanan, Vern, of Florida.....................
                                                                     28
                    Calvert, Ken, of California....................
                                                                     40
                    Carter, John R., of Texas......................
                                                                     38
                    Castor, Kathy, of Florida......................
                                                                     11
                    Cohen, Steve, of Tennessee.....................
                                                                     20
                    Cole, Tom, of Oklahoma.........................
                                                                     41
                    Crenshaw, Ander, of Florida....................
                                                                 36, 44
                    Dent, Charles W., of Pennsylvania..............
                                                                     42
                    Diaz-Balart, Mario, of Florida.................
                                                                 13, 30
                    Farr, Sam, of California.......................
                                                                     31
                    Frelinghuysen, Rodney P., of New Jersey........
                                                                     45
                    Garamendi, John, of California.................
                                                                     18
                    Gohmert, Louie, of Texas.......................
                                                                 20, 21
                    Granger, Kay, of Texas.........................
                                                                     37
                    Hastings, Alcee L., of Florida.................
                                                                     26
                    Hoyer, Steny H., of Maryland 
                     ...............................................
                     .
                                                              8, 17, 47
                    Jackson Lee, Sheila, of Texas 
                     ..............................................
                                                             13, 18, 22
                    Kaptur, Marcy, of Ohio.........................
                                                                     29
                    Lowey, Nita M., of New York....................
                                                                     15
                    Marchant, Kenny, of Texas......................
                                                                     21
                    McCollum, Betty, of Minnesota..................
                                                                     47
                    Mica, John L., of Florida 
                     ...............................................
                     .........
                                                              9, 24, 35
                    Miller, Jeff, of Florida 
                     ...............................................
                     .......
                                                          4, 10, 16, 46
                    Nugent, Richard B., of Florida.................
                                                                     43
                    Posey, Bill, of Florida........................
                                                                     43
                    Rogers, Harold, of Kentucky....................
                                                                     24
                    Ros-Lehtinen, Ileana, of Florida 
                     ..............................................
                                                               3, 7, 25
                    Wasserman Schultz, Debbie, of Florida..........
                                                                     45
                    Womack, Steve, of Arkansas.....................
                                                                     15
                    Yoho, Ted S., of Florida.......................
                                                                     17
             Memorial Service......................................
                                                                     49
                

                                      BIOGRAPHY

               Congressman Bill Young served 22 terms in Congress as a 
             Representative of the 13th Congressional District of 
             Florida. He was the senior member of the Florida 
             congressional delegation and was the senior Republican in 
             the entire Congress, House and Senate. He served over 50 
             years in public office (10 in the Florida State senate and 
             42 in the U.S. Congress) and worked with eight Presidents 
             of the United States.
               A 9-year veteran of the Army National Guard, and 6 more 
             as a reservist, Bill Young was nationally known for his 
             expertise on defense and security issues. He served as 
             chairman of the House Appropriations Subcommittee on 
             Defense and was also a member of the Appropriations 
             Subcommittee on Military Construction and Veterans Affairs 
             and the Appropriations Subcommittee on the Legislative 
             Branch.
               From 1999 to 2005 Congressman Young served as chairman 
             of the House Appropriations Committee, overseeing the 
             entire Federal discretionary budget. In fact, the last 
             time the United States had a balanced Federal budget was 
             under his chairmanship.
               Throughout his service on the Appropriations Committee, 
             Congressman Young was dedicated to improving the quality 
             of life of the men and women who serve and who have served 
             in the military. He regularly met with enlisted personnel 
             and officers to assess their needs, and as a result, 
             Congress has invested in improved base housing, better 
             medical care, increased pay, and more modern equipment for 
             the military.
               Congressman Young was also a leading advocate for 
             increased biomedical research. During his chairmanship of 
             the Appropriations Committee, he successfully led the 
             effort in Congress to double Federal medical research 
             funding over 5 years through the National Institutes of 
             Health. In addition, he led the fight for Federal funding 
             for a variety of medical issues, including an increased 
             immunization rate for preschoolers, improved public health 
             programs nationwide, and cures for Parkinson's and 
             Alzheimer's diseases.
               In 1986 Congressman Young was instrumental in creating a 
             national registry for bone marrow donors. Now named the 
             C.W. Bill Young Marrow Donor Recruitment and Research 
             Program in his honor, the registry lists more than 11 
             million volunteer donors for patients with leukemia and 
             other life-threatening diseases and has served as a model 
             for similar programs throughout the world. It has provided 
             the gift of life to more than 60,000 individuals and 
             facilitates an average of 20 bone marrow transplants every 
             day of the year.
               Throughout his career of public service, Bill Young was 
             a strong advocate for the needs of Pinellas County. Among 
             other issues, he worked to ease congestion along U.S. 
             Highway 19; attracted high-tech jobs to St. Petersburg; 
             improved health care for low-income children and families; 
             protected the neighboring MacDill Air Force Base from 
             closure; built a state-of-the-art medical center for 
             veterans at Bay Pines; ensured a steady supply of water 
             for the Tampa Bay area; and offset the effects of erosion 
             on the area's beaches.
               Congressman Young was born in Harmarville, PA, and moved 
             to Pinellas County at the age of 15. He is survived by his 
             wife Beverly, and three adult sons, Rob, Billy, and 
             Patrick.
?

                

                                           

                                 MEMORIAL ADDRESSES

                                         AND

                                   OTHER TRIBUTES

                                         FOR

                                   C.W. BILL YOUNG
                

                     Proceedings in the House of Representatives
                                              Tuesday, October 22, 2013
                                        PRAYER
               The Chaplain, the Reverend Patrick J. Conroy, offered 
             the following prayer:
               Almighty God, we give You thanks for giving us another 
             day.
               As the People's House returns, we give You thanks for 
             those most responsible for the resolutions reached this 
             past week and for the reopening of government, which has 
             meant so much to the families of those who have chosen to 
             serve their Nation by their work in government.
               As all return, the Capitol is in mourning for the loss 
             of two men of the House, former Speaker Tom Foley and 
             Representative Bill Young. Both men, a Democrat and a 
             Republican, were known to be giants in the People's House, 
             and their passing has deprived our Nation of experience 
             and wisdom in Congress at a time when it is needed.
               Bless all the Members with wisdom in good measure--
             pressed down, shaken together, and running over--that the 
             legacy of these great legislators might be carried on for 
             the benefit of all.
               May all that is done here in the People's House be for 
             Your greater honor and glory.
               Amen.

               Ms. ROS-LEHTINEN. Mr. Speaker, I offer a privileged 
             resolution and ask for its immediate consideration.
               The Clerk read the resolution, as follows:
                                     H. Res. 384
               In the House of Representatives, U.S., October 22, 2013:
               Resolved, That the House has heard with profound sorrow 
             of the death of the Honorable C.W. Bill Young, a 
             Representative from the State of Florida.
               Resolved, That a committee of such Members of the House 
             as the Speaker may designate, together with such Members 
             of the Senate as may be joined, be appointed to attend the 
             funeral.
               Resolved, That the Sergeant-at-Arms of the House be 
             authorized and directed to take such steps as may be 
             necessary for carrying out the provisions of these 
             resolutions and that the necessary expenses in connection 
             therewith be paid out of applicable accounts of the House.
               Resolved, That the Clerk communicate these resolutions 
             to the Senate and transmit a copy thereof to the family of 
             the deceased.
               Resolved, That when the House adjourns today, it adjourn 
             as a further mark of respect to the memory of the 
             deceased.

               The resolution was agreed to.
               A motion to reconsider was laid on the table.

               Mr. MILLER of Florida. Mr. Speaker, I move to suspend 
             the rules and pass the bill (H.R. 3302) to name the 
             Department of Veterans Affairs medical center in Bay 
             Pines, FL, as the ``C.W. Bill Young Department of Veterans 
             Affairs Medical Center''.
               The Clerk read the title of the bill.
               The text of the bill is as follows:
                                      H.R. 3302
               Be it enacted by the Senate and House of Representatives 
             of the United States of America in Congress assembled,
             SECTION 1. NAME OF DEPARTMENT OF VETERANS AFFAIRS MEDICAL 
               CENTER, BAY PINES, FLORIDA.
                The Department of Veterans Affairs medical center in 
             Bay Pines, Florida, shall after the date of the enactment 
             of this Act be known and designated as the ``C.W. Bill 
             Young Department of Veterans Affairs Medical Center''. Any 
             reference to such medical center in any law, regulation, 
             map, document, record, or other paper of the United States 
             shall be considered to be a reference to the C.W. Bill 
             Young Department of Veterans Affairs Medical Center.

               The SPEAKER pro tempore. Pursuant to the rule, the 
             gentleman from Florida (Mr. Miller) and the gentlewoman 
             from Florida (Ms. Brown) each will control 20 minutes.
               The Chair recognizes the gentleman from Florida.

               Mr. MILLER of Florida. Mr. Speaker, I yield myself such 
             time as I may consume.
               Today is bittersweet as we mark both the passing of a 
             congressional stalwart, Chairman C.W. Bill Young, and pay 
             a fitting tribute by naming the Bay Pines Veterans Medical 
             Center in his honor.
               Mr. Speaker, while the raw numbers themselves may speak 
             volumes for his dedication to America, it is his personal 
             qualities that I admire the most. When I came to Congress 
             in 2001, Bill Young was one of the first Members who 
             welcomed me here. It was on this floor, in this Chamber, 
             that Bill Young introduced me to the Members of this House 
             the night I was sworn in. Since then, I came to regard him 
             not only as a mentor or a colleague but, more important, a 
             personal friend.
               Chairman Young served the 13th District of Florida and 
             the people of the United States for over 42 years. He was 
             the senior member of the Florida congressional delegation 
             and was the senior Republican in both the House and in the 
             Senate. Counting his years in the Florida Legislature, 
             Bill Young served over 50 years in public service and 
             worked with eight Presidents.
               Bill will be most remembered for his devotion to 
             America's defense and especially to the men and women in 
             the Armed Forces. Having served in uniform for 15 years as 
             a member of the National Guard and Reserves, Bill was the 
             go-to guy on defense issues here in the House. He 
             dedicated his legislative and personal energies to improve 
             the quality of life for the men and women who serve; and, 
             as a result, those who wear the uniform and face our foes 
             have improved base housing, better medical care, increased 
             pay, and the best equipment.
               Members know Bill best for his work as chairman of the 
             House Appropriations Committee from 1999 to 2005, and he 
             continued to serve as chairman of the Subcommittee on 
             Defense until the time of his passing. But Bill Young was 
             much more than a defense expert. He had also been a 
             leading advocate for increased medical research.
               Bill worked to double Federal medical research funding 
             and funding to increase immunization rates for 
             preschoolers, to improve public health programs, and to 
             find cures for Parkinson's and Alzheimer's diseases. Just 
             one example, the C.W. Bill Young Marrow Donor Recruitment 
             and Research Program registry lists more than 9 million 
             volunteer donors for patients with leukemia and other 
             life-threatening diseases. That simple list has provided 
             the gift of life to more than 50,000 individuals.
               To completely describe the contributions of a man who 
             served in this body for over 42 years would take hours. So 
             with that, Mr. Speaker, on behalf of the entire Florida 
             delegation and all those who knew and served with him in 
             this House and in the other body, I offer our most sincere 
             condolences to his wife, Beverly, and his sons Rob, Billy, 
             and Patrick. He was your husband and father. To us, Bill 
             was a friend we will miss dearly.
               Mr. Speaker, I reserve the balance of my time.

               Ms. BROWN of Florida. Mr. Speaker, I yield myself such 
             time as I may consume.
               One of my favorite songs is ``May the Work I've Done 
             Speak for Me.''
               I rise today to pay tribute to Chairman Bill Young, 
             whose passing we mourn and whose dedication to American 
             servicemembers is well known to his fellow Floridians, as 
             well as to all who serve in this House.
               Taking care of our Nation's men and women in uniform was 
             his passion. He often called them ``kids'' because he 
             cared for them as deeply as if they were his family.
               Chairman Young was an officer and a gentleman. He served 
             for 9 years in the Army National Guard. During his decades 
             in Congress, he and his wife, Beverly, regularly visited 
             the hospitalized combat troops in Florida and here at 
             Bethesda. They helped arrange travel for military family 
             members, or those who were having trouble paying the 
             bills. Here in the House, at the Appropriations Committee, 
             and in any other ways he could find, he was tireless in 
             his work on behalf of servicemembers, veterans, and their 
             families.
               I worked with him when we were trying to finish the new 
             courthouse in Orlando. This was just after the Oklahoma 
             City bombing and all the new security requirements that 
             were added to protect the buildings and the people in 
             them.
               The project was $19 million over budget, and the 
             Chairman came to what must have been the longest townhall 
             meeting held here in the Capitol. Everyone had something 
             to say. The Chairman was a gentleman as always and wanted 
             what was best for the people of Florida, regardless of 
             party. This was the case also when it came to funding for 
             research. Chairman Young knew how important cutting-edge 
             research is and made it a priority to find the funding to 
             help future generations of Americans.
               Madam Speaker, as we say goodbye to our friend and 
             colleague, Chairman Bill Young, I want to thank him for 
             being a reasonable person to work with. All of our 
             encounters were pleasant and I will miss working with him.
               Every year, Bill Young was a keynote speaker at the 
             Memorial Day Program in Bay Pines. He initially worked 
             with President Gerald Ford and the Appropriations 
             Committee in 1976 to replace the original hospital 
             building. At one point, he went so far as to personally 
             show the President where the building was and how badly it 
             was leaking. He was very proud of the new hospital, which 
             opened in 1983. He was thrilled when they named the road 
             encircling it Bill Young Road.
               The VA Medical Center at Bay Pines has many services to 
             completely serve today's veterans. There are all the 
             health services that any hospital would provide; but, in 
             addition, there are services for caregivers, dental 
             services, extended care and services for seniors, along 
             with programs that help homeless veterans.
               In addition, the women veterans health care program at 
             Bay Pines focuses on wellness education, preventive health 
             care, disease management, and care for the emotional well-
             being of women veterans.
               Today, we will go one step further in honoring the man 
             who made the VA Medical Center at Bay Pines a reality. 
             Today, we take the step of naming the whole facility after 
             Bill Young. It is a most appropriate tribute--to name the 
             center whose mission it is to coordinate the care for 
             wounded men and women who serve.
               Mr. Speaker, as we say goodbye to our friend and 
             colleague, Chairman Bill Young, with this bill we can 
             honor his service in the way I know he would appreciate 
             most deeply--having his name associated daily and directly 
             with the highest level of care for our military veterans.
               I want to thank Veterans' Affairs Committee Chairman 
             Miller for bringing it before us today, and I urge all of 
             my colleagues to join me in supporting it.
               Mr. Speaker, I reserve the balance of my time.

               Mr. MILLER of Florida. Mr. Speaker, at this time, I 
             yield 1 minute to the gentlewoman from Florida (Ms. Ros-
             Lehtinen), the dean of our delegation.

               Ms. ROS-LEHTINEN. Mr. Speaker, I am so pleased that the 
             gentleman from Florida, Chairman Miller, has given me some 
             time; and I am so pleased to support his bill that he has 
             gotten the entire Florida delegation, working in a 
             bipartisan manner, to honor this good man and warm friend, 
             Congressman Bill Young.
               Bill was a true patriot and a tenacious public servant, 
             dedicating his life to his constituents in Pinellas 
             County.
               As you heard from some of our previous speakers, his 
             accomplishments are varied and many: creating a national 
             bone marrow registry; improving the quality of life for 
             active duty personnel, our National Guard, our Reserves, 
             our veterans; protecting thousands of jobs in his area; 
             preserving MacDill Air Force Base; improving Florida's 
             environment. These are just some of Bill's many 
             accomplishments.
               Bill was always willing to lend a helping hand to 
             members of our entire State delegation with projects that 
             were important in our local community. For example, he 
             helped me to find the funds to dredge the Miami River, to 
             protect Homestead Air Reserve Base after it was devastated 
             by Hurricane Andrew.

               The SPEAKER pro tempore. The time of the gentlewoman has 
             expired.

               Mr. MILLER of Florida. I yield the gentlewoman an 
             additional 30 seconds.

               Ms. ROS-LEHTINEN. But, more important, he was the 
             consummate gentleman. He was principled. He was honest, 
             maintaining civility with his colleagues, a trait that we 
             no longer honor as we should. Bill was an example for all 
             of us here in Congress. It was my privilege and my high 
             honor to serve with him. What a great privilege.
               I thank the gentleman for yielding me the time.

               Ms. BROWN of Florida. Mr. Speaker, I yield 3 minutes to 
             the gentleman from Maryland (Mr. Hoyer), the minority 
             whip.

               Mr. HOYER. Mr. Speaker, I thank the gentlelady for 
             yielding.
               Bill Young was my friend. Bill Young was a gentleman in 
             every sense of the word. Bill Young was an example for us 
             all. I will have the privilege of speaking on Thursday, at 
             his request, at his funeral. Bill and I served on the 
             Appropriations Committee for 23 years together; then I 
             left when I became majority leader.
               Bill Young was, as I said, a gentleman who cared about 
             each and every individual in this House. More than that, 
             he cared for each and every person who served in uniform 
             in our Armed Forces; and he and Beverly displayed that, as 
             Congressman Miller has said, on a weekly, daily basis.
               I am a Democrat; Bill was a Republican. It didn't make 
             any difference. He was an American, I was an American, and 
             we served our country together. No one served it better 
             than Bill Young. He chose to see our differences as slight 
             and our common purpose as great. He always chose civility 
             over partisanship.
               He was a skilled legislator on behalf of the people of 
             Pinellas County, FL, on behalf of Florida, on behalf of 
             his country, on behalf of the members of the Armed Forces 
             and the defense of this country. He was a champion of our 
             men and women in uniform, veterans and their families, all 
             of whom, wherever they lived, he viewed as his 
             constituents. This bill to rename the VA Hospital in Bay 
             Pines, FL, which I am proud to cosponsor, is a fitting 
             tribute to his devotion to our veterans and our troops.
               Though he represented Florida longer than any Member of 
             this House in history, Bill was originally from a hard-
             scrabble coal mining town in Pennsylvania. It was there he 
             learned many lessons about the hardships facing working 
             families and the need to ensure that opportunities would 
             be within their reach, and he never forgot that.
               He was a great Member of this body, a very powerful 
             Member of this body, an extraordinary, influential 
             American. But to all of us, he was Bill; to all those he 
             came in contact with, he was Bill. He was a person who 
             understood the needs, the fears, the aspirations, the 
             hopes of his people and the people of our country.
               My thoughts are with Beverly, with Bill Young's family, 
             and with the people of Florida's 13th District. This House 
             has lost a great Member.

               Mr. MILLER of Florida. Mr. Speaker, at this time, I 
             yield 1 minute to the gentleman from Florida (Mr. Mica).

               Mr. MICA. Mr. Speaker and my colleagues, it is 
             absolutely fitting that we take this step and name our 
             veterans hospital on the west coast of Florida after a 
             great American, a patriot, a hero for our veterans--Bill 
             Young.
               Probably more than anyone in the House of 
             Representatives or Congress, I have known Bill Young, I 
             think, longer. He and I were both aides to the first 
             Republican Congressman since the Civil War, Bill Kramer. 
             He was an aide before I was, but we met and worked 
             together more than 40 years ago.
               So I rise tonight not only as a colleague, but as a 
             personal friend and political ally of a great human being, 
             someone who put his heart and soul into his position, who 
             loved our service men and women, and his great legacy will 
             be all he has done to honor their memory.
               Tonight, we honor his memory with renaming Bay Pines 
             Veterans Hospital for Bill Young, my friend.

               Ms. BROWN of Florida. Mr. Speaker, I yield 3 minutes to 
             the gentleman from Georgia (Mr. Bishop).

               Mr. BISHOP of Georgia. I thank the gentlelady for 
             yielding.
               Mr. Speaker, I rise in full support of the legislation 
             before us this evening to rename the Bay Pines Veterans 
             Affairs Medical Center in Florida the C.W. Bill Young 
             Department of Veterans Affairs Medical Center. I am 
             honored to join over 200 of my House colleagues as an 
             original cosponsor of this bipartisan legislation, a great 
             tribute to one of our dearest colleagues.
               Indeed, Bill Young will be forever known as one of the 
             strongest supporters of our military and veterans in the 
             history of this Congress. His staunch and unyielding 
             support of our military and our veterans is legendary.
               Likewise, he was a true champion for his district, and a 
             fount of knowledge about the chronicles of the U.S. House 
             of Representatives.
               Bill Young will be missed in Washington, as well as in 
             Florida. He, along with the late Congressman Jack Murtha, 
             were not only great friends and mentors to me, but their 
             wives, Beverly and Joyce, were also friends and mentors to 
             my wife, Vivian.
               Chairman Murtha and Chairman Young were neither Democrat 
             nor Republican when it came to our national defense. 
             Regardless of which was the chairman or ranking member of 
             the Defense Subcommittee, the men and women of America's 
             military would be taken care of. I am proud to have served 
             as a member of the House Appropriations Subcommittee on 
             Defense under both of these great leaders.
               With Bill Young's death, the Nation has truly lost one 
             of the few remaining statesmen. Our thoughts and prayers 
             are with Beverly and the entire family. Congress and our 
             Nation have lost one of its greatest statesmen. I have 
             lost a dear friend and a mentor.
               While we could use every word in every language spoken 
             by mankind, we would not have enough words combined to 
             adequately thank Bill Young for his service. I am pleased 
             to join my colleagues in passing this resolution to rename 
             the Bay Pines Veterans Affairs Medical Center in Florida 
             the C.W. Bill Young Department of Veterans Affairs Medical 
             Center.
               It has been said that you make your living by what you 
             get; you make your life by what you give. Bill Young gave 
             so much to so many for so long. He will be greatly missed.

               Mr. MILLER of Florida. Mr. Speaker, the gentleman from 
             Georgia alluded to over 200 cosponsors. I would announce 
             to the House tonight that we had 379 original cosponsors 
             of this piece of legislation.
               I yield 1 minute to the gentleman from Florida (Mr. 
             Bilirakis), the vice chairman of the Veterans' Affairs 
             Committee, whose district abutted Mr. Young's.

               Mr. BILIRAKIS. Thank you, Mr. Chairman--379 cosponsors, 
             what a testament. What a wonderful man. What a great man.
               Mr. Speaker, I rise today to strongly support this 
             legislation. Over the past five decades, Chairman Young 
             selflessly served Florida and the Tampa Bay area, leading 
             many initiatives to promote economic growth, create jobs, 
             of which his contributions to the military and veterans in 
             particular are immeasurable.
               In the 1970s, the chairman played a significant role in 
             winning critical funding for the Bay Pines Veterans 
             Affairs Medical Center, which allows the facilities to 
             support almost 100,000 of our heroes in our area today. 
             With this funding, Bay Pines was able to increase the size 
             of its campus, replace the hospital, and now offers a wide 
             variety of services to these veterans in their backyard 
             because of Chairman Young.
               Chairman Young has left behind a rich legacy in support 
             of our heroes, especially those in the Tampa Bay area. By 
             renaming this important facility in his honor, we will 
             provide a lasting monument to remember a great friend, 
             Chairman Bill Young.

               Ms. BROWN of Florida. Mr. Speaker, I yield 3 minutes to 
             the gentlewoman from Florida (Ms. Castor), whose district 
             butts up to Congressman Bill Young's district.

               Ms. CASTOR of Florida. I thank my colleague from Florida 
             for yielding the time and for her dedication to the 
             Nation's veterans as well.
               Mr. Speaker, I rise in strong support of designating the 
             Bay Pines VA Medical Center in Pinellas County, FL, the 
             Congressman C.W. Bill Young VA Medical Center. I am very 
             proud to cosponsor this bill, and I would like to thank 
             Chairman Miller of Florida, Congresswoman Brown, and all 
             of our colleagues for honoring Bill Young with such a 
             designation.
               I have been fortunate to serve alongside Bill Young for 
             the 7 years that I have been here. Seven out of the 43 
             years that Mr. Young served in the Congress, we 
             represented St. Petersburg and the Tampa Bay area 
             together. I know I speak for my predecessors, Jim Davis 
             and Sam Gibbons, who also passed last year, when I say 
             that Congressman Bill Young was a gentleman and an 
             outstanding partner for the interests of the Tampa Bay 
             area and the State of Florida.
               It is very appropriate that we honor Bill Young by 
             naming the Bay Pines VA Medical Center after him. He was a 
             fixture at the Bay Pines Veterans Day and Memorial Day 
             ceremonies every year. But more important, he was a 
             fixture when there was no ceremony, when he would visit 
             wounded soldiers in the hospital or at their homes, when 
             there was no fanfare, and he determined that it was just 
             his desire to ensure that the servicemembers and their 
             families received the care that they deserved and that 
             they had earned.
               Many facilities at the MacDill Air Force Base in Tampa 
             are state of the art due to Mr. Young's extra attention. I 
             am very grateful for the help he provided to me when 
             MacDill and the soldiers and civilians who worked there 
             were in need. For example, in the past year, he boosted 
             our efforts in ``MacDill Means Mobility'' when we tried to 
             expand the mission at the base. When I brought to his 
             attention that the Department of Defense was not assisting 
             former servicemembers and their families who qualified for 
             Medicaid health services, he helped cut through the red 
             tape.
               Many also will point to his expansive earmarks and great 
             legacy in the Tampa Bay area in a variety of ways: our 
             drinking water reservoir is the Bill Young Reservoir; 
             medical research initiatives at the University of South 
             Florida; programs at St. Petersburg College; programs at 
             Eckerd College. We are so proud that Mr. Young initiated 
             the national bone marrow donor program at All Children's 
             Hospital in St. Petersburg.
               It was decades ago, through Congressman Young's 
             leadership, that the Bay Pines VA Medical Center in St. 
             Petersburg was created. Bay Pines is now the fourth-
             largest veterans hospital in the country. It serves 
             veterans all across west central Florida and employs many 
             talented caregivers.
               So it is a fitting tribute to this remarkable American 
             to name the Bay Pines VA Medical Center in his honor, and 
             I am proud to cosponsor the resolution. Congressman Young 
             was a model statesman. His kindness, sincerity, and dogged 
             advocacy for our Nation's men and women in uniform and 
             veterans will be missed.

               Mr. MILLER of Florida. Mr. Speaker, I am proud to yield 
             1 minute to the gentleman from Florida (Mr. Diaz-Balart).

               Mr. DIAZ-BALART. Mr. Speaker, let me first thank 
             Chairman Miller for bringing this important piece of 
             legislation forward. We literally could be here days 
             speaking about the many accomplishments of Chairman Young, 
             and those days would not suffice.
               I got a chance to work with him on the Appropriations 
             Committee. I will tell you that so many times I went to 
             him for advice, for help. Bill Young was one of those 
             people who you always went to when you needed help, when 
             you needed advice. He was such a wise man.
               As I just said, since we would never have enough time to 
             talk about all of his great accomplishments--and you have 
             heard not only about his accomplishments but just the fact 
             that he was an incredibly honorable, caring, wise--
             ``statesman'' is the word that comes to mind.
               Since my time is limited, I just want to echo something 
             that I heard. I am not quite sure, Mr. Speaker, who said 
             it. Somewhere I once read that ``to be a great man, you 
             first have to be a good man.'' If there is anybody that 
             phrase reminds me of, it is Bill Young.

               Ms. BROWN of Florida. I yield 2 minutes to the 
             gentlewoman from Texas (Ms. Jackson Lee).

               Ms. JACKSON LEE. Mr. Speaker, I would like to thank the 
             gentlewoman from Florida (Ms. Brown), and I would like to 
             thank Chairman Miller--we have worked together. I thank 
             the gentleman so very much. I want to acknowledge as well 
             the ranking member of the Appropriations Committee, Mrs. 
             Lowey. Thank you for allowing me to share with you this 
             evening my comments, appreciation, and respect that I have 
             for Bill Young.
               First of all, I would like to say what everyone else has 
             said. What a great American. What a great patriot. What a 
             great public servant.
               Bill, may you rest in peace.
               Congressman Young, Chairman Young was on the floor of 
             the House just a few weeks before he passed. I think that 
             is important to note, that he was working every single day 
             to make America better. He loved soldiers and veterans. He 
             loved their families. It is highly appropriate for him to 
             have his name so honored as a named veterans hospital.
               I want to say that it is particularly important to note 
             that Congressman Young was able to speak to kings and 
             queens and generals and people in high places. But he was 
             best when he was talking to everyday people, to the 
             soldiers whom he loved.
               He came from humble beginnings. Starting with his 
             mother, a single parent, losing his home early in life, 
             living in a hunting camp. You would think that he would 
             not be the generous-hearted person that he is today. But 
             he was really what America is all about, the American 
             dream.
               I remember his commitment to our soldiers and his easy 
             ability to work across the aisle as someone who advocated 
             for soldiers suffering from post-traumatic stress 
             disorder. I want to let his family know how dedicated he 
             was to providing extra resources to the thousands upon 
             thousands of soldiers who returned from Iraq and 
             Afghanistan who needed extra help with post-traumatic 
             stress disorder.
               He was very kind to those of us who were concerned about 
             breast cancer and women in the U.S. military who may have 
             experienced breast cancer.

               The SPEAKER pro tempore. The time of the gentlewoman has 
             expired.

               Ms. BROWN of Florida. I yield an additional 1 minute to 
             the gentlewoman from Texas.

               Ms. JACKSON LEE. I thank the distinguished gentlelady 
             from Florida.
               He worked with me over the last two sessions, Mr. 
             Speaker, in providing extra funding for post-traumatic 
             stress disorder to a center that is in Houston, TX, but 
             also dealing with additional research on triple-negative 
             breast cancer that might have an impact not only on the 
             military population of women but also with women around 
             the Nation. Bill was like that. Congressman Bill Young, 
             Chairman Bill Young was like that, always extending, 
             always sharing.
               He has a special place in my heart because my late 
             mother is from St. Petersburg, FL. I would say that he 
             should have a special place in the hearts of all Americans 
             because if you ever want to see exemplified a grand and 
             stately gentleman who had nothing in his heart but the 
             love and respect and admiration for this Nation, it was 
             our dear friend, the Honorable Bill Young.
               To his family, I say to them, we love him, and we extend 
             our deepest sympathies. Thank you, my dear friend. You 
             have served well. I hope that you will rest well.
               May God bless him, and God bless his family.

               Mr. MILLER of Florida. Mr. Speaker, I now yield 1 minute 
             to the gentleman from Arkansas (Mr. Womack).

               Mr. WOMACK. I thank Chairman Miller for this time.
               Mr. Speaker, I rise today to join the chorus of people 
             remembering our friend from Florida, Bill Young, the 
             chairman of the Defense Subcommittee of Appropriations.
               Chairman Young, as you know, spent five decades of his 
             life in this Chamber fighting for a better America for 
             both his constituents and our country. As the dean of the 
             Republican Conference, he was a leader and of counsel to 
             colleagues young or old, Republican or Democrat.
               Mr. Speaker, I am the newest member of the Defense 
             Subcommittee of Appropriations. I was fortunate to receive 
             his mentorship. I learned from his fearless, unparalleled 
             support of our troops and our veterans, and I admired his 
             outspoken and unwavering commitment to what was in their 
             best interest. Mr. Speaker, as a veteran myself of over 30 
             years, I was also a beneficiary of his incredible support 
             of those who wear the uniform.
               While his presence will be forever missed, the Bill 
             Young Department of Veterans Affairs Medical Center will 
             serve as a small and fitting reminder that this 
             institution, our men and women in uniform, and America, 
             are undoubtedly better off because of Bill Young. I am 
             proud to support it.

               Ms. BROWN of Florida. Mr. Speaker, could you please tell 
             me how much time remains on each side.

               The SPEAKER pro tempore. The gentlewoman has 4\1/2\ 
             minutes remaining. The gentleman has 10\1/2\ minutes 
             remaining.

               Ms. BROWN of Florida. I thank the Speaker.
               At this time, I yield 3 minutes to the gentlewoman from 
             New York (Mrs. Lowey).

               Mrs. LOWEY. Mr. Speaker, I rise today in support of this 
             bill.
               For more than 40 years, Bill Young served his district 
             and this institution with integrity and honor after having 
             served our country in the Army National Guard for nearly a 
             decade.
               As chairman of the Appropriations Committee, his 
             leadership and advocacy for our men and women in uniform 
             and our veterans was unsurpassed. In a time when political 
             culture too often devolves into hostility, and compromise 
             is a dirty word, Bill Young was always a gentleman who 
             consistently reached across the aisle.
               He would share with me his visits with his dear wife, 
             Beverly, to wounded warriors to bring them comfort. How 
             happy those visits made him.
               It was such a pleasure to serve with him, and he will be 
             truly missed. Renaming this VA facility in his memory is a 
             tribute to his legacy.
               You will be missed, my dear friend. Rest in peace, God 
             bless you, and God bless America.

               Mr. MILLER of Florida. Mr. Speaker, I have no further 
             requests for time and am prepared to close.

               Ms. BROWN of Florida. Mr. Speaker, first of all, let me 
             thank Chairman Miller for organizing this tribute to 
             Chairman Young.
               In closing, I often say when you are born, you get a 
             birth certificate; and when you die, you are going to get 
             a death certificate; and that little dash in between is 
             what you have done to make this a better place.
               I don't know anyone who has done more than Chairman Bill 
             Young. It has just been my honor having had the 
             opportunity to serve with him. His leadership for the 
             Florida delegation--I mean, we have gone through some 
             tough times. But I can tell you, he has always been a 
             gentleman.
               When I first began, I said that one of my favorite 
             sayings is to let the work I have done speak for me. 
             Clearly he has done his work, and as Paul said, he has 
             fought a good fight, and he has kept the faith. He has 
             done his job. It has been left up to us to continue his 
             great work.
               I yield back the balance of my time.

               Mr. MILLER of Florida. Mr. Speaker, tonight I want to 
             thank all the Members on both sides of the aisle for their 
             kind words they have said of our friend from Florida, Bill 
             Young. I sincerely hope that the words give Beverly, Rob, 
             Billy, and Patrick some measure of consolation.
               While we will no longer have Bill's personal and wise 
             counsel to go to, that beautiful veterans medical center 
             will bear his name. It will give witness to his many years 
             of service to America and her defenders.
               I want to thank my good friend from Florida (Ms. Brown) 
             for her help in bringing this bill to the floor and the 
             over 375 cosponsors that we have brought on this piece of 
             legislation.
               I respectfully ask all Members to join us in supporting 
             this piece of legislation, H.R. 3302, and I yield back the 
             balance of my time.

               Mr. HOYER. Mr. Speaker, I heard from my friend, former 
             Congressman Norm Dicks, today, and he asked me to submit 
             this statement on his behalf. He had the privilege of 
             serving with Chairman Bill Young for over 30 years on the 
             Defense Appropriations Subcommittee, and said this about 
             him:

               Chairman Young did more for the men and women in the 
             Armed Forces than anyone in Congress. Bill and Beverly 
             made weekly trips to Bethesda and Walter Reed to see our 
             wounded warriors and offered personal help to their 
             families. Bill Young believed in bipartisanship; the 
             Defense Subcommittee almost always reported the Defense 
             Appropriations bill with all Members, Democrats and 
             Republicans, in full support. Bill was a great American, a 
             great leader, and a great friend and he will be truly 
             missed.

               Mr. YOHO. Mr. Speaker I rise today in honor of Charles 
             William Young, better known to his colleagues and 
             constituents as Bill. I am deeply saddened Congressman 
             Young, a man who put all others before himself, has 
             passed--he will be sorely missed.
               Although I only had the pleasure of working with Bill 
             for a short time, I benefited greatly from his leadership 
             and the strong example of service to the United States and 
             Florida that he set. Congressman Young leaves behind a 
             long history of dedicated service to his constituents and 
             the veterans of America.
               Bill saw the Nation through some of her most tumultuous 
             times, and throughout all of it he worked tirelessly to 
             make sure our Nation's veterans were taken care of. He was 
             a constant fixture at VA medical centers in Florida and in 
             the Washington, DC, area always making sure the veterans 
             were receiving the best possible care.
               I proudly join my colleagues in renaming the Bay Pines 
             VA Medical Center the C.W. Bill Young Department of 
             Veterans Affairs Medical Center as a small token of the 
             Nation's gratitude for his dedicated service.
               I urge my colleagues to pass this small gesture of our 
             gratitude without objection.

               The SPEAKER pro tempore. The question is on the motion 
             offered by the gentleman from Florida (Mr. Miller) that 
             the House suspend the rules and pass the bill, H.R. 3302.
               The question was taken; and (two-thirds being in the 
             affirmative) the rules were suspended and the bill was 
             passed.
               A motion to reconsider was laid on the table.

               Mr. GARAMENDI. Mr. Speaker, I appreciate this 
             presentation. We had one of those very important moments 
             to recognize the long service of one of our colleagues.
               As we listen to those eulogies, I think all of us should 
             be reminded of the awesome responsibilities that we share 
             here in the House of Representatives. Bill Young, 
             obviously, felt those responsibilities deeply. He carried 
             them out for an extraordinary length of time--almost 43 
             years. We are thankful for his service, for his memory; 
             for what he has taught us about perseverance and 
             steadfastness; and also, as you can tell from the various 
             eulogies, about working across the aisle. . . .

               Ms. JACKSON LEE. Mr. Speaker, I rise in proud support, 
             and as an original cosponsor of H.R. 3302, naming the 
             Veterans Affairs Medical Center in Bay Pines, FL, as the 
             ``C.W. Bill Young Department of Veterans Affairs Medical 
             Center.''
               I thank the Chair and ranking member of the Veterans 
             Affairs Committee, Mr. Miller of Florida and Mr. Michaud 
             of Maine, for working together to expedite the 
             consideration of this fitting tribute to one of the most 
             beloved Members to serve in this body.
               Mr. Speaker, this is a fitting tribute to one of the 
             greatest champions of the men and women who don the 
             uniform in defense of our Nation, the late C.W. Bill Young 
             of Florida, who died last Friday, October 18, 2013, at the 
             age of 82.
               Mr. Speaker, Bill Young was more than a great 
             legislator. He was a good man. Virtually every Member who 
             served with Bill has a story about how the gentleman from 
             Florida lent his ear or a helping hand to help advance a 
             critical project or further a legislative priority. I am 
             no exception.
               Earlier this year, Chairman Young worked with me to win 
             inclusion in H.R. 1960, the National Defense Authorization 
             Act, of my amendment providing increased funding and 
             support for medical research related to triple negative 
             breast cancer. Chairman Young also helped me to $10 
             million in increased funding to support work to assist 
             servicemembers suffering from post-traumatic stress 
             disorders (PTSD). This act of kindness on the part of Bill 
             Young is changing lives in my congressional district, 
             which is home to one of the Nation's largest 
             concentrations of veterans suffering from PTSD. Bill's 
             compassion for our veterans and his colleagues knew no 
             limits.
               Bill Young was born December 16, 1930, in Harmarville, 
             PA. A flood washed away his home at age 6 where he lived 
             with his single mother. An uncle had a hunting camp in 
             Florida, so the family moved there when he was 16. Bill 
             Young dropped out of St. Petersburg High School to support 
             his ill mother, Wilma M. Hulings. He joined the Army 
             National Guard and served from 1948 to 1957.
               In 1960 Bill Young was elected to the Florida Senate, 
             where he served from 1961 to 1970, and was minority leader 
             in that chamber from 1966 to 1970. Until 1963 Bill Young 
             was the only Republican Senator in Florida.
               From 1999 to 2005 Congressman Young served as chairman 
             of the House Appropriations Committee, overseeing the 
             entire Federal discretionary budget. In fact, the last 
             time the United States had a balanced Federal budget was 
             under his chairmanship.
               Throughout his service on the Appropriations Committee, 
             Bill Young has been dedicated to improving the quality of 
             life of the men and women who serve and who have served in 
             the military. He regularly met with enlisted personnel and 
             officers to assess their needs, and as a result, Congress 
             has invested in improved base housing, better medical 
             care, increased pay, and more modern equipment for the 
             military.
               Congressman Young has also been a leading advocate for 
             increased biomedical research. During his chairmanship of 
             the Appropriations Committee, he successfully led the 
             effort in Congress to double Federal medical research 
             funding over 5 years. He has likewise led the fight for 
             Federal funding for a variety of medical issues, including 
             an increased immunization rate for preschoolers, improved 
             public health programs nationwide, and cures for 
             Parkinson's and Alzheimer's diseases.
               Throughout his career of public service, Congressman 
             Young has been a strong advocate for the needs of Pinellas 
             County. Among other issues, he has worked to ease 
             congestion along U.S. Highway 19; attract high-tech jobs 
             to St. Petersburg; improve health care for low-income 
             children and families; protect the neighboring MacDill Air 
             Force Base; build a state-of-the-art medical center for 
             veterans at Bay Pines; ensure a steady supply of water for 
             the Tampa Bay area; and offset the effects of erosion on 
             the area's beaches.
               For nearly 2 weeks, Congressman Young had been 
             hospitalized with back problems that stemmed from a 1970 
             small plane crash. Despite the circumstances, Congressman 
             Young vowed to beat his illness and battled valiantly 
             until the very last day, when he finished his journey on 
             Earth and ascended to the heavens.
               Congressman Young was the longest serving Republican 
             Member of the House and was respected by all who knew him. 
             He served over 50 years in public office and worked with 
             eight Presidents of the United States. His presence will 
             be forever missed and we all mourn his loss and extend our 
             deepest sympathies to his family and friends.
               But Bill Young's good work lives on. In renaming the 
             Veterans Affairs Medical Center at Bay Pines as the C.W. 
             Bill Young Department of Veterans Affairs Medical Center, 
             we consecrate a monument to a remarkable public servant 
             that exists to carry on the work to which Bill Young 
             dedicated his life: serving those who risked their lives 
             to keep us free.
               Mr. Speaker, none of us who knew and admired Bill Young 
             will ever forget him or the way he brightened the lives of 
             all the people he served. He was one in a million and he 
             will be deeply missed. He will never be replaced. He was 
             an American original. He was my friend.

               Mr. GOHMERT. Mr. Speaker, I move that the House do now 
             adjourn.
               The motion was agreed to; accordingly (at 9 o'clock and 
             31 minutes p.m.), under its previous order and pursuant to 
             House Resolution 383 and House Resolution 384, the House 
             adjourned until tomorrow, Wednesday, October 23, 2013, at 
             10 a.m., for morning-hour debate, as a further mark of 
             respect to the memory of the late Honorable Thomas S. 
             Foley and the late Honorable C.W. Bill Young.
                                            Wednesday, October 23, 2013
               Mr. COHEN. Mr. Speaker, last Friday I became aware of 
             the death of a great U.S. Congressman, Bill Young, from 
             Florida.
               Mr. Young was the senior Republican Member, who served 
             in this House since 1970. He was a gentle soul, congenial, 
             friendly--always nice to me. I asked him to join with me 
             in the Tourette Syndrome Caucus, and he did. He was one of 
             the founding members. He was a leader in seeking funds for 
             biomedical research, which doubled during the time in 
             which he was the chairman of the Appropriations Committee. 
             He understood earmarks were the responsibility of this 
             Congress, and he fought for them and supported them.
               He was close friends with John Murtha, and I was proud 
             to serve and to know both of them. Both men were in the 
             military reserve, and both men toward the end of their 
             careers recognized that war was wrong in places where they 
             had previously been for it--John Murtha in Iraq, and, in 
             2012, Mr. Young said that it was time to get out of 
             Afghanistan.
               A great leader has passed. His funeral will be tomorrow 
             in the State of Florida. I was proud to know him. This 
             country was fortunate to have him serve in this body.

               Mr. GOHMERT. . . . Mr. Speaker, I would like to pay a 
             brief tribute to a patriotic man who was devoted to the 
             military, devoted to seeing that the military had what it 
             needed, devoted to America. C.W. Bill Young will have his 
             funeral tomorrow in Florida. He was 82 years old. There 
             have been plenty of tributes written about Bill Young. 
             There will be many more written and many more spoken 
             tomorrow, and I will look forward to hearing those at his 
             funeral, but there is nothing that could be said that 
             could surpass the witness he was to who he was.
               I talked to him numerous times. Sometimes I had 
             questions. Sometimes I had points to make. When I had 
             questions, he always had time. He was always honest--
             completely honest, very sincerely honest. He was a kind, 
             decent, honest man. We miss when we lose a kind, decent, 
             honest man.
               Bill Young, you will be missed.

               Mr. MARCHANT. Mr. Speaker, it is with a sense of 
             solemnity that I wish to honor the passing and memory of 
             our colleague, Congressman C.W. Bill Young, who passed 
             away on October 18, 2013, at the age of 82.
               Congressman Young was the most senior Republican in both 
             Houses of Congress and represented the best of public 
             service. He served in the Florida State senate for 10 
             years before being elected to the U.S. House of 
             Representatives from the Tampa Bay area in 1970. In his 
             nearly 43 years in Congress, Congressman Young worked hard 
             for the people of his district and was especially tireless 
             in supporting military personnel and their families--both 
             legislatively and personally. He and his wife, Beverly, 
             were known for their countless visits to wounded soldiers. 
             Himself a veteran of the Army National Guard and Reserves, 
             Bill Young was the current chairman of the Defense 
             Subcommittee of the Appropriations Committee, and he had 
             previously chaired that full committee from 1999 to 2005.
               With decades of experience, Bill Young naturally became 
             a source of guidance for many of his colleagues. He had a 
             balanced and well-regarded approach to the issues and 
             affairs of Congress, and his personal kindness was known 
             to many. While this moment is significant for the people 
             of the 13th District of Florida and for the House itself, 
             my prayers today are especially with Congressman Young's 
             wife, Beverly, their three sons, and all of his loved 
             ones.
               Mr. Speaker, on behalf of the 24th District of Texas, I 
             ask all my distinguished colleagues to join me in honoring 
             and remembering Congressman Young.

               Ms. JACKSON LEE. Mr. Speaker, I rise in proud support, 
             and as an original cosponsor of H. Res. 384, which 
             expresses the condolences of the House on the death and 
             recognizes the extraordinary contributions to our Nation 
             of Congressman C.W. Bill Young of Florida, who died last 
             Friday, October 18, 2013.
               I thank the bipartisan leadership of the House and the 
             Chair and ranking member of the Veterans Affairs Committee 
             for working together to expedite the consideration of this 
             fitting tribute to one of the most beloved Members to 
             serve in this body.
               Mr. Speaker, H. Res. 384 recognizes the extraordinary 
             contributions of Bill Young to public life in Florida and 
             the United States. It is both fitting and proper that the 
             People's House pay this tribute to a pioneering and path-
             breaking man who devoted his life to serving the people.
               Mr. Speaker, this happy moment stands in stark contrast 
             to the sorrowful evening of October 18, 2013, when we 
             learned that our dear friend and colleague, the great Bill 
             Young, had lost his life.
                                               Monday, October 28, 2013
               The SPEAKER pro tempore. Pursuant to House Resolution 
             384, and the order of the House January 3, 2013, the 
             Speaker on October 24, 2013, appointed the following 
             Members of the House to the committee to attend the 
             funeral of the late Honorable C.W. Bill Young:
               The gentlewoman from Florida, Ms. Ros-Lehtinen
               The gentleman from Ohio, Mr. Boehner
               The members of the Florida delegation:
               Ms. Corrine Brown
               Mr. Hastings
               Mr. Mica
               Mr. Crenshaw
               Mr. Miller
               Mr. Diaz-Balart
               Ms. Wasserman Schultz
               Mr. Bilirakis
               Mr. Buchanan
               Ms. Castor
               Mr. Posey
               Mr. Rooney
               Mr. Deutch
               Mr. Nugent
               Mr. Ross
               Mr. Southerland
               Mr. Webster
               Ms. Wilson
               Mr. Grayson
               Mr. DeSantis
               Ms. Frankel
               Mr. Garcia
               Mr. Murphy
               Mr. Radel
               Mr. Yoho
               Other Members in attendance:
               Mr. Cantor
               Ms. Pelosi
               Mr. Hoyer
               Mr. McCarthy, California
               Mr. Young, Alaska
               Mr. Sensenbrenner
               Mr. Rogers, Kentucky
               Mr. Wolf
               Mr. Visclosky
               Mr. Bishop, Georgia
               Mr. Calvert
               Mr. McKeon
               Mr. Frelinghuysen
               Ms. Jackson Lee, Texas
               Mr. Latham
               Mr. Price, North Carolina
               Mr. Aderholt
               Ms. Granger
               Mr. Sessions
               Mr. Carter
               Mr. Cole
               Mr. King, Iowa
               Mr. Gohmert
               Mr. Roe, Tennessee
               Mr. Nunnelee
               Mr. Womack

               Mr. MICA. Madam Speaker, I am very pleased tonight to 
             lead a Special Order in memory of the life and service of 
             our dear friend, our colleague from Florida, Mr. Bill 
             Young. We will hear from members of the Florida delegation 
             and also from leaders from the committee on which he was a 
             leader, himself.
               To lead off tonight in our Special Order in that vein, I 
             am very pleased to yield first to the chair of the 
             Appropriations Committee of the House of Representatives, 
             on which Mr. Young served so distinguishably, the 
             gentleman from Kentucky (Mr. Rogers).

               Mr. ROGERS of Kentucky. Let me thank my colleague from 
             Florida for yielding me this time.
               Madam Speaker, I rise today with a very heavy heart to 
             honor the memory and service of our dear friend and 
             colleague, Bill Young.
               Bill served in this House and he served this country for 
             decades with compassion and distinction. I have not known 
             this institution without him--most of us are in that same 
             situation--and I believe it will take a long time to fill 
             the hole that his absence has left. As an appropriator, he 
             was a role model for all of us. When I became chairman of 
             the committee, I knew I had some very large shoes to fill 
             in following in the footsteps of Chairman Young, among 
             others. He fought with determination and enthusiasm to 
             make this country a better place.
               Bill was a champion for our troops and veterans 
             especially, both in the Halls of Congress and outside. His 
             fierce determination and dedication to our troops and 
             veterans never wavered. As we all know, he and his dear 
             wife, Beverly, were to be found very frequently at 
             Bethesda or at Walter Reed in the city or at a hospital 
             overseas where troops were sick, and they spent hours and 
             hours helping those who were injured.
               He was the chairman of the Defense Subcommittee on the 
             Appropriations Committee for many years. He also served on 
             the Military Construction and Veterans' Affairs 
             Subcommittee, and his thumbprint is very visible in the 
             improved medical care and in the quality of life of our 
             troops, among the many other issues that he held dear to 
             his heart.
               Bill was a leader in this House who was able to make his 
             mark with grace and fortitude. He was a lion about the 
             things that he cared about; but he was a gentle lion, and 
             he did things with grace and with a quiet voice until you 
             crossed him on the betterment of our troops. Then Bill 
             Young would let you know where to get off.
               I will miss Bill Young greatly as I know all of us will. 
             My prayers are with his family, with Beverly, with his 
             many friends, and with all of those who had the privilege 
             of knowing and working with Bill Young. He will be greatly 
             missed.

               Mr. MICA. I thank the gentleman.
               We are also pleased to have with us tonight a 
             distinguished leader of the Florida delegation and now the 
             dean of the Florida delegation--our senior member--to pay 
             tribute to Bill Young. I yield to the gentlelady from 
             Florida (Ms. Ros-Lehtinen).

               Ms. ROS-LEHTINEN. Mr. Chairman, thank you for the time.
               A good man, a warm friend, and a true patriot, Bill 
             Young was an example for all of us here in Congress, and 
             it was an honor and a privilege to serve with him. Madam 
             Speaker, the loss of Bill's experience and knowledge will 
             be felt by everyone in this Chamber.
               The consummate gentleman from Florida, Bill was always 
             ready to listen to his colleagues on both sides of the 
             aisle, greeting everyone with a smile. Both principled and 
             honest while maintaining civility with his colleagues, 
             Bill never allowed differences of opinion to devolve into 
             partisan bickering, and he worked with Republicans and 
             Democrats to balance our budget as chairman of the House 
             Appropriations Committee.
               A tenacious public servant, Bill dedicated his life to 
             his constituents. His number one priority was ensuring 
             those who serve our country get the help and the services 
             they need to be successful. Improving the quality of life 
             for veterans and for all active duty personnel, including 
             those in the Reserve and the National Guard, was Bill's 
             mission. Bill was always there for those returning from 
             combat, visiting and helping our wounded warriors with his 
             wife, Beverly, and providing for our veterans at the 
             medical facility in Bay Pines, which now bears his name.
               As chairman of the Appropriations National Defense 
             Subcommittee, Bill oversaw spending by the Pentagon and 
             worked to ensure the readiness of our military in combat. 
             His efforts helped not just those in his district but 
             Americans across the Nation. His legacy will be seen 
             around every corner, from the beaches of Pinellas County 
             to our fighting forces around the world.
               A genuine statesman, Bill's accomplishments are as 
             varied as they are numerous. He fought to protect 
             Florida's environment by blocking drilling close to our 
             gulf coast and in helping to restore eroding beaches. With 
             Beverly, Bill helped create a national bone marrow 
             registry with almost 10 million donors registered thus 
             far. Just as he fought for his own district, he could 
             always be counted upon to help us with our constituent 
             needs.
               In 1991 in his district, he saved MacDill Air Force Base 
             from closure; and a year later, he helped rebuild and 
             protect Homestead Air Reserve Base in my congressional 
             district after the devastation of Hurricane Andrew. 
             Through his vital efforts in my district, the Miami River 
             dredging project was completed--a project that continues 
             to generate billions for the shipping industry, to create 
             jobs and to spur economic growth in south Florida. It 
             couldn't have happened without Bill Young. Bill was 
             instrumental in assisting Tampa Bay residents and those in 
             my south Florida community and, indeed, across our 
             country.
               A true gentleman, a public servant, and a friend, Bill 
             Young deserves all of our thanks, Madam Speaker. He will 
             be forever remembered as a champion not just for Florida 
             but, indeed, for our entire great Nation.
               I thank the gentleman for arranging this Special Order.

               Mr. MICA. I thank the gentlelady.
               Mr. Young was respected not only by his Republican peers 
             and colleagues but by peers on both sides of the aisle. So 
             I am pleased now to yield to a senior member of the 
             Florida delegation on the other side of the aisle, the 
             cochair, Mr. Hastings.

               Mr. HASTINGS of Florida. Thank you very much. I 
             appreciate you, Mr. Mica, my colleague, for arranging this 
             Special Order, and it is special that we come here to 
             speak about a gentleman who was special to us all.
               Madam Speaker, obviously, we are here with heavy hearts 
             and with great sadness tonight in our honoring of a friend 
             and a colleague, Congressman Bill Young.
               Bill was an assiduous public servant and a tireless 
             advocate for all Floridians; but above all, he was a man 
             of integrity and a true statesman. The House of 
             Representatives will not be the same without him. He 
             served in Congress for 42 years; and I, as well as others, 
             am deeply honored to have had the opportunity to serve 
             alongside him for the past two decades. He dedicated 
             himself to providing for our Nation's service men and 
             women and was a powerful voice for America's best 
             interests at home and abroad. His distinguished career has 
             left its mark on the lives of countless Americans.
               When I first came to Congress in 1992, I met with Bill 
             Young and Sam Gibbons. They were on opposite sides of the 
             aisle, but were dear friends, dedicated to Florida and to 
             making the Florida delegation strong. I remember vividly 
             learning from both of them through the years. In addition, 
             throughout all of the travails of hurricanes and 
             disasters, Bill Young stood with all of us who suffered 
             during those periods, and he did everything he could to 
             bring resources to Florida and to this Nation during 
             disasters.
               My first experience with an earmark was when Bill became 
             chairman of the Appropriations Committee. I didn't know 
             much about the process, but I knew that I wanted to get 
             money in the budget to contribute to the African American 
             Research Center in Fort Lauderdale in my congressional 
             district. When I went to him, I was nervous because I 
             wasn't sure how it would be handled, and he calmed me very 
             easily by saying, ``It is done.'' For sure, he had had a 
             hand in the development of that particular research 
             center, which stands, and I honor him for having assisted 
             in bringing resources there.
               Last week, Speaker Boehner said:

               It has only been a week since we began trying to imagine 
             the House without Bill Young--an impossible task in its 
             own right--and now he is gone. In our sorrow, we recall 
             how not a day went by without a colleague seeking Bill's 
             counsel as he sat on his perch in the corner of the House 
             floor.

               I certainly had the distinction of going to that corner 
             and consulting with him.
               President Obama said in his statement:

               Congressman Young will be remembered for his advocacy 
             and support for the armed services, servicemembers and 
             their families, as well as for his statesmanship and his 
             long history of working across the aisle to keep our 
             country moving forward.

               Defense Secretary Hagel said:

               He will be remembered as a passionate advocate for the 
             welfare of America's servicemembers and military veterans. 
             Though his loss will be felt by many, his legacy and 
             commitment to a strong national defense will always 
             inspire us.

               It is the height of irony that our friend would pass at 
             Walter Reed Hospital. No one in this body spent as much 
             time with our military at Walter Reed and around this 
             country as did Bill Young. He, of course, has a legacy 
             that is far excellent in that arena and also in bringing 
             resources to the area that he served as well as to other 
             areas around this Nation.
               Tonight, I join with the people of Florida in keeping 
             Beverly, Bill's sons, grandchildren, family, friends, and 
             staff in my thoughts and prayers during this time of 
             enormous sadness and loss.
               Once again, I thank you, Chairman Mica, for arranging 
             for us to have the privilege of honoring this great 
             American.

               Mr. MICA. Thank you.
               Now, in continuing hearing from the leadership of our 
             delegation, I am pleased to yield to the chairman of the 
             Florida delegation, the gentleman whose district is 
             adjacent to Mr. Young's, to the south, Mr. Vern Buchanan.

               Mr. BUCHANAN. Thank you, Mr. Chairman.
               Madam Speaker, I rise today in honor of the memory of my 
             dear friend, colleague and mentor, Congressman Bill Young.
               For over four decades there has not been a stronger 
             voice in this Chamber for our brave men and women in 
             uniform other than Bill Young. My district was just south 
             of Bill Young's district, and we have almost 90,000 
             veterans. There is nobody who has benefited, I think, in 
             terms of a district more than our veterans have in terms 
             of Bill Young's leadership and in what he has brought to 
             Pinellas County and to the State of Florida. He was an 
             inspiration to so many because he personified the most 
             important virtue of public service--he did it for others.
               As dean of the Florida delegation, Bill provided wisdom 
             and counsel to Members on both sides of the aisle. He 
             served this great institution with devotion, civility, and 
             distinction. I am honored personally to have served with 
             this extraordinary man. With his passing, the State of 
             Florida and the Nation have lost an outstanding lawmaker, 
             statesman, and public servant. My thoughts and prayers are 
             with his family during this difficult time.

               Mr. MICA. I am pleased now to recognize another 
             colleague across the aisle. Again, Bill Young's 
             friendships and his service included everyone in the House 
             of Representatives and in the Congress, so I am pleased to 
             yield 3 minutes to the gentlelady from Ohio, Marcy Kaptur.

               Ms. KAPTUR. I want to thank Chairman Mica so very much 
             for the privilege of extending the deepest condolences of 
             the people of Ohio to the Young family, to the 
             constituents of Congressman Bill Young's district in 
             Florida.
               It was such a privilege to know him. Truly, he was not 
             just a vigilant patriot, though that surely would have 
             been enough, but he really was a man of the House. He 
             belonged here, and his people knew that for over four 
             decades.
               When I think of Bill Young, I think of words like 
             courage, perseverance, insight, and fair play. He had a 
             gentlemanly demeanor every time that I encountered him. He 
             had a respect for regular order, for the gavel, and for 
             seniority, which I share. He had a fortitude about him 
             that people in my part of the country call real spunk, and 
             he had a sparkle in his eye and an easy smile and an 
             understanding. He was such a real human being.
               Part of that is the fact that he grew up very poor in 
             Pennsylvania in a coal town in an old shack. He really 
             knew what poverty was. He didn't have an easy childhood 
             and he never forgot that. Yet he rose to be a master 
             appropriator. In that capacity, he was not imperious but 
             collegial, and he handled the gavel with fair play.
               He loved his wife, Beverly, so much. I can still see her 
             sitting in the gallery or coming unannounced into a 
             committee meeting. He loved his family and he loved 
             Florida.
               He worked so hard for the men and women in our armed 
             services and our veterans, certainly in his own State 
             where right near him is the Bay Pines Veterans Medical 
             Center, the fourth largest veterans facility in the 
             country, but also all the operations of SOUTHCOM, as in 
             his last decade of service dealing with all that we have 
             to on the Defense Subcommittee in terms of the wars being 
             conducted in Afghanistan and, of course, Iraq. He was 
             engaged in all the intelligence at the highest levels and 
             kept his good measure. His endurance and his heroic 
             battles in these years that all of us witnessed showed the 
             true measure of the man.
               In closing, Madam Speaker, I would just like to say I 
             will be seeing Bill Young in all the old familiar places, 
             not just here on the floor, but as we travel in codels to 
             some of the most godforsaken places on Earth, as we visit 
             some of the highest level research facilities in our 
             country and our men and women in uniform. I shall always 
             remember Bill Young and be grateful for having been able 
             to serve with him.

               Mr. MICA. I am pleased to yield 3 minutes to the 
             gentleman from Miami, Mr. Mario Diaz-Balart, another 
             Florida colleague, who is also a gentleman who served with 
             Mr. Young distinguishably on the Appropriations Committee.

               Mr. DIAZ-BALART. Chairman Mica, thank you for bringing 
             us together today.
               Madam Speaker, you have heard of Bill Young, the 
             statesman, and that he was. We all know how he was, 
             perhaps, the best friend and strongest ally of our troops, 
             men and women in uniform, those in battle, those currently 
             in uniform, and those who are veterans.
               But those of us who worked with him and got to know him 
             here know him, frankly, almost as like a godfather to all 
             of us. There is not one time that we didn't go to him that 
             he would not be helpful.
               I remember after those storms in Florida, when we had a 
             bunch of hurricanes, going to see Bill Young about getting 
             help for the folks who had been hurt by the storms. His 
             wisdom and his desire to help was always so present. He 
             was always helpful, whether it was Everglades restoration, 
             because he was also such a champion for the environment. 
             Again, always with a smile.
               Then I got to know him better when I, again, served with 
             him in Appropriations and was able to see how he mastered 
             that appropriations process like, frankly, nobody before 
             him and I think potentially nobody after him will again.
               I will tell you, Madam Speaker, the part that to me was 
             a real privilege was that he was one of the people that I 
             whipped. He was on my whip card. So I would go on 
             different issues and talk to him about the issue and find 
             out if he was leaning one way or another. Every time I 
             went there, what I got from Bill Young was, frankly, a 
             lesson. He instructed. I was never able to inform him 
             about what the issues were; he informed me. He instructed 
             me like he always instructed all of us. And always, Madam 
             Speaker, with that incredible, warm smile, with that warm, 
             firm handshake, which he had until the very end.
               He never complained. We all know that for a long time he 
             was in pain and yet never complained. He always wanted to 
             make sure that you were feeling good, and he always wanted 
             to know what he could do for you, never asking for 
             himself.
               I said recently--and I have got to find out who said 
             this--but I heard or read someplace that ``to be a great 
             man you first have to be a good man.'' Madam Speaker, Bill 
             Young was a great man for so many reasons: for all that he 
             did for this country, for all that he did for the State of 
             Florida, for all that he did for our troops and the 
             environment, the way he helped his colleagues, or how 
             generous and how humble and how caring and loving he was. 
             He was an incredibly good man. If there is anybody that 
             applies to, that before you can become a great man you 
             have to be a good man, if there is anybody that that 
             describes, it is our chairman, Bill Young.
               To his family, to his constituents, to the troops, and 
             the veterans who are, in essence, his family as well, our 
             deepest condolences. Bill Young is irreplaceable. There 
             will never be somebody like him again.
               What a privilege and what an honor. One of the 
             privileges and honors, the greatest privileges and honors 
             of my life, was to be able to work with him, to get to 
             know him, to be his friend.
               So again, to his constituents and to his family, our 
             condolences. We will miss him, and he will never be 
             forgotten.

               Mr. MICA. Madam Speaker, I am now pleased to yield 3 
             minutes to the gentleman from California (Mr. Farr), 
             again, reaching across the aisle with the respect and 
             esteem in which Mr. Young was held.

               Mr. FARR. Thank you, Congressman Mica, for yielding.
               Madam Speaker, I feel it is a very special privilege to 
             be able to pay honor to our colleagues here. I think of 
             Bill Young as being one of the lions, one of the giants of 
             this institution, because he really used the institution 
             for what we all get elected to do.
               First of all, he loved public service. He was in an 
             elective office for 52 years between State and Federal 
             Government. He also served in the National Guard Active 
             Duty and Reservist for 15 years. His life was about 
             service. He used his service here in Congress to be what I 
             think this institution is all about: it is about 
             leadership; it is about friendship; and it is also about 
             accomplishment. I don't think anybody has had a better 
             record of accomplishment in so many different fields.
               I came here in 1993, and I had the largest military base 
             in the United States close--Fort Ord, CA. I got to know 
             the people on the Defense Appropriations Committee. On my 
             side of the aisle was Jack Murtha. It seems like Jack's 
             best friend was a Republican on the other side of the 
             aisle, Bill Young. Jack said, ``You better go tell Bill 
             everything you have told me about needing some help.''
               We were trying to convert swords to plowshares by 
             building a brand-new university to serve the underserved 
             population in Fort Ord, and we needed appropriations for 
             it. Bill just jumped on it. He knew the purpose. Even 
             though he was a strong warrior, he really realized that 
             this was the future after a base was closed.
               I invited him out to the district. He came to Monterey, 
             CA, where we still had the Defense Language Institute. 
             Bill went in there and saw that all the languages we were 
             teaching were the old tape recorders where you had to wind 
             and rewind. He said, ``My God, you need some modern 
             equipment,'' and put in appropriations to get that 
             equipment. He visited the Naval postgraduate school and 
             got a lot of really interesting feedback from soldiers who 
             had just come out of theater.
               His and Jack's friendship--Jack Murtha, who predeceased 
             him--was just remarkable in this House. If there is a 
             legacy here, it is their legacy. It is how two people 
             being on the Appropriations Committee should--and we all 
             need to go back to what we have been calling regular 
             order, where we come here to accomplish things, to fix 
             things that are broken. Bill Young was probably the first, 
             if any, who would talk about needing to bring back the 
             ability to help areas that just don't get formula money--
             earmarks. If you disclose them and go through a process so 
             that you don't have the client-assigned stuff, these 
             things are good, particularly for rural Americans, and 
             particularly for areas where people are really poor.
               I think my favorite story is that when he came out to 
             the Defense Language Institute, came on military air, 
             Beverly, his wife, insisted, since I represent Carmel, 
             that I get our former mayor, Clint Eastwood, to have lunch 
             with them. So we arranged that at Clint's Mission Ranch.
               On the way from Monterey over to Carmel, we passed by 
             the beach, and there was a stranded sea lion there. 
             Beverly got out and said, ``We've got to take care of the 
             sea lion before anything else,'' and had the entire crew 
             of the airplane--because she insisted they had to come to 
             lunch with her, they had to help get the sea lion. Well, 
             we had marine mammal rescue, and they eventually showed 
             up.
               When we got to the restaurant, I don't think anybody 
             thought that the whole crew was going to come. Bill was 
             insistent, ``No, everybody is equal here.'' It didn't 
             matter whether you were a Congress Member or just a crew 
             member; you were going to get a chance to have lunch with 
             Clint Eastwood.
               We had a lot of laughs, a lot of discussion about 
             things. Then that led to--and I hadn't realized it. Bill 
             was a big animal rights supporter. He and I authored a 
             bill with his friend, Bob Barker, who was here. I met Bob 
             Barker through him. Bob Barker, ``The Price is Right,'' 
             had dedicated a lot of his life to banning elephants in 
             circuses. Bill said, ``I am going to author that bill.'' 
             So we did a bipartisan author, and Bob Barker came. In 
             fact, we linked up with Kim Basinger, the movie star, who 
             was very interested in that issue. We went on, and we 
             didn't win that bill, but we won the puppy mill bill, and 
             we won some other humane treatment of animals. He was 
             really interested in that.
               Best of all, I think he left a legacy that we need to 
             get back to: a legacy of production, a legacy of 
             comraderie where we really like each other, and a legacy 
             that takes care of not only all the soldiers--because they 
             didn't care what rank you had; if you were a person in 
             uniform, you were all equal and being treated in the most 
             respectful way--but he also did that for people of less 
             fortune and for animals who need a voice in Congress as 
             well. What a wonderful man.
               Beverly and your sons, I really am going to miss going 
             to Appropriations Committee meetings and seeing Bill 
             there. So Beverly and your three adult sons, Rob, Billy, 
             and Patrick, we all share your grief, and Congress will 
             certainly miss Bill Young, a great man in this 
             institution.

               Mr. MICA. I am pleased to yield 3 minutes to the 
             gentleman from Florida, the Honorable Gus Bilirakis, 
             another Florida colleague, and he also has a district that 
             is adjacent to Mr. Young's.

               Mr. BILIRAKIS. Madam Speaker, I rise today to remember 
             the life and service of someone I admire greatly for his 
             wisdom and humility, my dear friend and mentor, Chairman 
             Bill Young.
               While I always referred to him as ``Chairman'' because 
             of the respect he commanded, he used to beg me not to use 
             that term, insisting, in his typical humble fashion, as 
             Mr. Farr alluded to, that we were all equal in this 
             Chamber.
               Over the past five decades, the Chairman graciously 
             served Florida and the Tampa Bay area, leading many 
             projects and initiatives to promote economic growth and 
             create jobs back at home. His contributions to his 
             district, the entire Tampa Bay area, and to the military 
             in particular, are immeasurable.
               He was instrumental in saving MacDill Air Force Base and 
             helped grow Tampa Bay into a hub for our defense industry. 
             In addition, he played a significant role in winning 
             critical funding for Bay Pines Veterans Administration 
             Medical Center, which supports a large number of veterans 
             in our area. For his efforts, my colleague and I have 
             joined together in support of renaming this valuable 
             medical facility in his honor.
               His contributions also extend to higher education with 
             his role in developing centers of excellence in technology 
             and marine science at the University of South Florida.
               Finally, we will all remember his work on behalf of sick 
             children in creating a national registry for bone marrow 
             donors.
               While the Chairman came from humble beginnings, he has 
             left behind a rich legacy that we, as Members of Congress 
             and Americans, must all aspire to achieve. The Chairman 
             was never afraid to reach across the aisle and always 
             worked for the greater good.
               I am extremely thankful that I was able to express my 
             gratitude and admiration to him last week when I visited 
             him at his bedside. I told him how much his colleagues and 
             constituents loved him and appreciated all he did for 
             them.
               In closing, I wanted to share a few words from a final 
             letter my father, former Congressman Mike Bilirakis, sent 
             to his former colleague:

               Dear Bill: Since we are roughly the same age (remember, 
             I am 5 months older so we've joked about ``respecting your 
             elders''), we have expected that this day would come for 
             both of us but first for me and not so soon. We grew up in 
             the same Pittsburgh area at the same time--tough 
             depression poverty, which made us tough. We didn't know 
             each other then, but I guess our Lord decreed we would 
             meet in Pinellas County, Florida, years later. We worked 
             hard, climbed out of poverty and became successful--the 
             good old American way.
               Bill, you have earned eternal rest, but our world will 
             certainly miss you. The Florida corner in the House 
             Chambers will miss you as well. Thanks for being my friend 
             and, in many ways, a younger mentor. Thanks for being a 
             great American patriot. Thanks for the good you have done 
             for all of us. Yours has been a life well lived. May your 
             memory be eternal.

               We will certainly miss you, Mr. Chairman.

               Mr. MICA. Madam Speaker, I join my colleagues in paying 
             tribute to my good friend and fellow Member of Congress, 
             C.W. Bill Young.
               More than four decades ago, I first met Bill when I 
             served as a campaign aide to the late Congressman Bill 
             Cramer. Bill Young was a Florida State senator at the time 
             who was seeking the St. Petersburg, West Florida Coast 
             congressional seat being vacated by my boss who was 
             running in 1970 for the U.S. Senate.
               Bill Young had already served as a congressional aide to 
             Bill Cramer and then was elected as Florida's first 
             Republican State senator since the Civil War. Bill Cramer 
             when elected was the first GOP U.S. House Member since 
             that era.
               As fate would unfold, Bill Cramer lost and Bill Young 
             took his seat in Congress.
               I had aligned myself with Florida's West Coast GOP 
             political operatives called the ICY Machine. Those were 
             initials for Jack Insco, a top Cramer aide and political 
             strategist, Bill Cramer, and Bill Young, a Florida 
             political powerhouse at that time.
               While my boss lost his election, I gained great 
             experience and wonderful friends. Among them, Bill Young, 
             rising GOP star, and his two young aides, George Cretekos 
             and Doug Gregory. Both George and Doug served with Bill 
             Young for over three decades, during which I was 
             privileged to count all among my friends and political 
             allies.
               As an aide to U.S. Senator Paula Hawkins from 1980 to 
             1985, I had the honor of working with two GOP leaders who 
             worked tirelessly for Florida and our Nation.
               I must say, two legends with two very different styles. 
             Paula had a flair for the media and attention and Bill 
             quietly pursued his legislative agenda. Both were highly 
             effective in their own way. Paula championed missing 
             children and Bill rose as a champion of our military. Now 
             both have joined the ages and are part of the history of 
             Congress and the State of Florida.
               Having worked with Bill Young on military issues 
             important to our State and Nation as recently as the past 
             few weeks, I can tell you no one could be more effective. 
             No one could be more respected or trusted.
               While fond memories of Bill Young continue, his real 
             legacy will transcend generations for our military and 
             long benefit our national defense.
               For his tireless work on behalf of all Americans and all 
             citizens of the Sunshine State, I join my colleagues in 
             this special tribute to C.W. Bill Young.
               What a great privilege it has been to share part of my 
             life and grow memories with Bill Young. I extend my 
             deepest sympathies to his wife, Beverly, to the Young 
             family, and to his devoted staff and constituents.
               Madam Speaker, at this time I will yield back my time 
             with the intent of relinquishing the balance of the time 
             to one of the leaders from Florida and also a member of 
             the Appropriations Committee, Mr. Crenshaw.
               I yield back the balance of my time.

               The SPEAKER pro tempore. Under the Speaker's announced 
             policy of January 3, 2013, the gentleman from Florida (Mr. 
             Crenshaw) will control the remainder of the hour.

               Mr. CRENSHAW. Madam Speaker, before I introduce and call 
             on a couple of my colleagues, I would like to say a brief 
             word about my longtime friend and mentor, C.W. Bill Young. 
             I first met Bill when he was in the Florida Senate. He was 
             the Republican leader in the Florida Senate. He was the 
             minority leader. I think my colleagues might be interested 
             to know that he was the Republican leader, minority 
             leader, not because he gathered all the votes of the other 
             minority members, the Republicans; he was the Republican 
             leader because he was the only Republican in the Florida 
             Senate.
               You might say maybe that diminishes that leadership 
             role, and I would say just the reverse is true because 
             Bill Young was such a great leader, such a man of courage 
             and conviction that he would stand up for whatever he 
             believed, even if there was no one there to stand up with. 
             I think it is because of that conviction, because of that 
             commitment, that we are here tonight to honor his legacy.
               I found it interesting that about 25 years later I found 
             myself in the Florida Senate, and I became the first 
             Republican to be elected president of that body, and I got 
             a note from Bill Young. He said, ``We've come a long 
             way.''
               Of course when I came to Congress, he was there to help 
             me become a member of the Armed Services Committee because 
             he knew that I cared about the military. He was there to 
             help me become a member of the Appropriations Committee 
             and the Defense Subcommittee which he loved so very much. 
             He taught me and he taught all of us that everyone has 
             value. Everyone has worth, whether it is a private first 
             class or four star general, and he lived and died by the 
             belief that if we are to be the land of the free, it is 
             because we take care of our brave.
               So that is the way he lived his life, and we will hear 
             tributes tonight--we heard tributes last Thursday in Largo 
             at his funeral, but I believe that the lasting legacy that 
             Bill Young leaves will be seen for generations to come in 
             the greatness of our military, and in the compassion that 
             we have for those who serve and those who are wounded.
               So, Madam Speaker, I simply want to say tonight that 
             America lost a great leader, and I lost a great friend.
               Godspeed, Bill Young.
               Now I would like to yield to one of my colleagues on the 
             Appropriations Committee, the chairman of the State, 
             Foreign Operations Subcommittee and a member of the 
             Defense Subcommittee which Bill Young chaired, the 
             gentlewoman from Texas (Ms. Granger).

               Ms. GRANGER. I thank the gentleman from Florida for 
             yielding me time.
               Madam Speaker, I rise today to pay tribute to and 
             celebrate the life of an outstanding public servant, Bill 
             Young. It is a true honor to have been able to know a man 
             like Chairman Young and to be able to call him both a 
             friend and a role model for all of us. There is no one who 
             was more respected, decent, gracious, dedicated, and 
             humble. Everyone who crossed his path is richer for the 
             experience. That is evident through the hundreds of people 
             who attended his memorial service last week. His service 
             was attended by over 30 Members of Congress. During a time 
             of such partisanship, the respect for Chairman Young was 
             illustrated through the attendance from both sides of the 
             aisle, including leadership.
               The respect the military has for his lifelong advocacy 
             for our national security and for our servicemembers was 
             evident through the attendance and heartfelt eulogies of 
             former Deputy Secretary of Defense Gordon England and the 
             Commandant of the Marine Corps, General James Amos.
               It was clear that the Department of Defense depended on 
             him. Immediately before the service began, General Amos 
             bestowed a very rare and appropriate honor by naming 
             Chairman Young an honorary Marine.
               I will never forget when I was first appointed to the 
             Defense Appropriations Subcommittee. As one of the first 
             women ever to serve on the subcommittee, I wasn't sure how 
             I would be treated, but Bill immediately brought me in and 
             treated me with respect and kindness, as he did to 
             everyone. Gender didn't matter to him; he only cared about 
             my commitment to the military and to our Nation.
               When John Wooden wrote ``the true test of a man's 
             character is what he does when no one is watching,'' he 
             clearly was talking about Chairman Young. Over the years, 
             we have all heard many stories about the personal interest 
             and assistance that he and Beverly provided for our 
             wounded soldiers, but we never heard these stories from 
             him. He never talked about what he did. He was motivated 
             by doing what was right for someone else's health and 
             well-being.
               When Marine Lance Corporal Josh Callihan spoke at the 
             memorial service, it was the first time that most of us 
             had ever heard about the extraordinary efforts the 
             Chairman and Beverly took to help this wounded warrior.
               Lance Corporal Callihan had been shot in the back and 
             sustained significant damage to his spinal cord. With no 
             family support system, he was in Bethesda injured both 
             physically and emotionally. Then he met Bill and Beverly 
             Young, and his life changed forever. They stepped in and 
             became his family, helping him to recover. Today, Josh 
             calls the Chairman and Beverly ``mom'' and ``dad.'' After 
             many years of hard work, he is now married and expecting 
             his first child. According to Josh, none of this would be 
             possible without Bill Young.
               As I was thinking about what I wanted to say about 
             Chairman Young, I realized it was impossible to do justice 
             to such an extraordinary man merely through words. He was 
             truly one of a kind. The best way we can honor this man is 
             to redouble our efforts to our national security and to 
             the treatment of our servicemembers and their families. I 
             ask that all of my colleagues join me to make sure that we 
             carry on his legacy.
               In closing, I want to let Beverly, their children, his 
             friends and his staff, who were part of his family, know 
             that you all remain in our thoughts and our prayers.

               Mr. CRENSHAW. Madam Speaker, I would like to yield to 
             the gentleman from Texas (Mr. Carter), another member of 
             the Homeland Security Subcommittee.

               Mr. CARTER. I thank the gentleman from Florida for 
             yielding.
               We can talk about Bill Young all night, a man who came 
             from nothing and grew to be head and shoulders above, 
             champion for America's military. But I think the thing 
             that struck everybody who ever met Bill Young was his 
             humanity. He was just such a kind, gentle, fine man. He 
             cared about every soul he met. He took the time when I was 
             a freshman to meet me and talk to me. I told him I had 
             some interest in appropriations and learning how it 
             worked, and he sat down and talked to me about it. 
             Whenever I had any questions I needed to ask him, he was 
             always very informative and very kind in explaining things 
             to people, to me and others.
               Bill Young was a very special man because he came from 
             very meager means and he rose up to a position of power, 
             but you would have never known by his interaction with 
             humanity that he was a man of power in this government 
             because everybody who draws a breath was important to Bill 
             Young. But the most important people were those who served 
             in our armed services.
               I wanted to share something which I think is a perfect 
             description of the kind of man Bill Young was. I had the 
             privilege to go on a trip with him to Normandy for an 
             anniversary of that landing on D-day, and on the way we 
             landed in Shannon, Ireland. When we arrived, it just so 
             happened that at least one or two brigades from Fort Hood, 
             TX, which is in my district, were there, ordinary soldiers 
             and their officers in transit to Afghanistan.
               When Bill Young came into the room, ordinary soldiers, 
             as if he were some kind of star that you would see in a 
             rock concert, started moving over to have their picture 
             taken with Chairman Young. Chairman Young at that time was 
             in a wheelchair most of the time. But as he did when he 
             presented his bill on this floor, he stood with every 
             soldier and took a picture. I stood on the periphery of 
             that and listened. He asked about their parents and where 
             they were from and about their deployments and their 
             needs. Just a gentle, kind, friendly man with hundreds of 
             soldiers gathered around him.
               I heard one soldier ask another soldier: ``Who is that 
             guy? It looks like everybody here wants to have their 
             picture taken.''
               The other guy said: ``I don't know for sure, but the way 
             I understand it, he is the guy who makes sure when we go 
             to battle, we have everything that we need to be 
             victorious.''
               That is a great statement about a human being and a 
             great statement about the man. He cared about all who 
             serve our Nation, but in particular those who risk their 
             lives on our behalf. In honor of Bill Young, I will always 
             remember that day where soldiers flocked to him just to be 
             seen with Mr. Young.

               Mr. CRENSHAW. I now yield to the gentleman from 
             California (Mr. Calvert), another member of the Defense 
             Appropriations Subcommittee that Bill Young chaired.

               Mr. CALVERT. Madam Speaker, tonight I join my colleagues 
             in honoring the life and legacy of a great man and an 
             American patriot, Bill Young.
               I keep looking to my right and expect to see him with 
             that great smile, but I am sure tonight he is sitting at 
             the right hand of God.
               The death of Congressman Bill Young was a great loss for 
             this Chamber, for our country, and for the millions of men 
             and women in uniform who were Bill Young's priority for 
             more than 40 years. Anyone who has served with Bill knew 
             of his unwavering dedication to our active duty military, 
             our veterans, and their families.
               As chairman of both the Defense Appropriations 
             Subcommittee and the full Appropriations Committee, he was 
             both firm and fair. When it came to our troops, he was 
             uncompromising and insisted on nothing but the best for 
             the U.S. servicemembers.
               Chairman Young was motivated by his genuine and deep 
             concern for the well-being of the individual soldier, 
             sailor, airman, marine, and guardsman. His concern went 
             far beyond politics and policies. As many of you know, 
             Bill and his wonderful wife, Beverly, took special 
             interest in our wounded veterans, visiting the wounded 
             regularly at Walter Reed National Military Medical Center. 
             Whether in a committee hearing or in the military 
             hospitals around the world, he was tireless in visiting, 
             speaking with, and listening to these incredible 
             servicemembers.
               While we can't hope to replace Bill Young, perhaps we 
             can follow his example and let his integrity, his gracious 
             manner, his firm commitment to the men and women who 
             protect this country serve as an inspiration to this 
             Chamber as we continue to wrestle with the same issues to 
             which he devoted his life.
               On a personal note, I was honored to work with Chairman 
             Young on the Defense Appropriations Subcommittee. I was 
             continually impressed by his depth of knowledge. I think 
             it is safe to say that no one understood the Department of 
             Defense quite like Bill Young. His knowledge, expertise, 
             and compassion will be sorely missed on the subcommittee.
               On my own behalf and on behalf of so many former Members 
             who served with Bill, like our mutual friend and former 
             chairman, Jerry Lewis, I extend my condolences to his 
             wife, Beverly, his sons, and his entire family.

               Mr. CRENSHAW. Thank you.
               I now yield to the gentleman from Oklahoma (Mr. Cole), 
             another member of the Defense Appropriations Subcommittee.

               Mr. COLE. I thank my friend for yielding.
               Madam Speaker, like every Republican in this Chamber, 
             until 10 days ago, every day I served in the House of 
             Representatives I served with Bill Young.
               It has been noted here that he was a lion and a legend. 
             At the time I was fortunate enough to come to this Chamber 
             in 2003, he was probably at the zenith of his influence. 
             He was chairman of the House Appropriations Committee, and 
             he was the confidant of the President, our military 
             leaders, and leaders around the world at a time when the 
             United States was at war.
               No one cared more about the defense of the United States 
             of America than Bill Young, and no one cared and did more 
             for the people who actually bear the burden, the men and 
             women that wear the uniform of this country--past, 
             present, and future--than Chairman Young.
               He was also a role model for many of us, a mentor, and a 
             friend. He was somebody who would reach out and help you, 
             take care of you, look after you, and give you the wisdom 
             and advice that only he, with all his years of experience, 
             can give. I remember on one occasion, not too long ago, 
             when the chairman was obviously ill in the last several 
             years of his life and still very active chairing our 
             committee, a pretty busy man, a man dealing with his own 
             problems; and I had tornadoes that hit my town in Moore, 
             OK. Two days after those tornadoes hit, Bill Young was on 
             the phone to tell me that I would be getting a telephone 
             call from representatives of a New York investment bank 
             called Cantor Fitzgerald, which had suffered grievous 
             damage during 9/11, where they had lost 650 of their 950 
             employees at the World Trade Center. That company made a 
             commitment that it would look after all of its people and 
             all of their families and would reconstitute itself, and 
             it did. Then they built on that commitment and said, ``We 
             are going to help other people that are in tragedy by 
             devoting all of our revenues earned on 9/11 of every 
             year--not just profits, everything we earn--to help people 
             in need.'' They have kept that commitment.
               Bill Young had forged a relationship with them because 
             of all they had done to help men and women in uniform and 
             the victims of disaster. He said, ``They will be calling 
             you and they want to help.'' They did. They helped 
             literally hundreds of families with millions of dollars' 
             worth of personal and directed relief. That probably never 
             would have happened if Bill and Beverly Young had not 
             reached out to me at that point, and I and the people in 
             my community will be forever grateful to them.
               So we have lost arguably, I think, the greatest 
             Republican Member of this body in the last two 
             generations. We have not seen his like before, and it will 
             be a long time again before we see anyone that rivals his 
             compassion, his character, his civility, his decency, and 
             his absolute devotion and commitment to our country and to 
             the men and women who defend it.

               Mr. CRENSHAW. I yield to the gentleman from Pennsylvania 
             (Mr. Dent), another member of the Appropriations 
             Committee.

               Mr. DENT. I too want to the take a moment to reflect 
             upon the life and service and dedication of Bill Young. 
             Much has been said about him already this evening, and I 
             too, like many, look back at that corner and want to see 
             Bill Young there, but obviously he is not with us.
               Before calling Florida his home, Chairman Young was 
             actually born in Harmarville, PA, in Allegheny County in 
             western Pennsylvania, that area best known for steel and 
             coal. A lot of tough people came out of that area, and 
             certainly Bill Young, I think, really had a lot of the 
             character traits I associate with people there. He could 
             be very tough when he needed to be, very firm. He was just 
             like steel.
               Also, we should not forget about his compassion. He was 
             a kind man, a gentle man, a patient man. I would often ask 
             him questions or make a request of him from time to time, 
             and he always listened to me very patiently. He had served 
             here for 22 terms. He didn't have to spend a whole lot of 
             time with me, but he did, and I always appreciated that. 
             He was a great mentor to me and to many other Members 
             here. It was a pleasure to serve with him.
               There are so many other things about Chairman Young, 
             too. It has been mentioned about his support of our 
             troops, particularly our wounded warriors, and the impact 
             they had on him and the impact he had on those wounded 
             warriors.
               When you get beyond the defense and veterans policy, 
             though, Chairman Young played an integral role in creating 
             a national registry for bone marrow donors back in 1986, 
             and that registry helped save more than 50,000 lives over 
             the years.
               Again, not having known Bill Young as long as some of my 
             colleagues, I just wanted to say what an extraordinary 
             privilege it was for me to serve with him, to know him, to 
             call him a friend, and really to be one of my mentors here 
             in the House.
               My deepest thoughts and prayers go out to Beverly and 
             the entire Young family during a difficult time.

               Mr. CRENSHAW. I now yield to the gentleman from Florida 
             (Mr. Posey), one of Mr. Young's colleagues.

               Mr. POSEY. I thank the gentleman for yielding.
               Madam Speaker, I first met the man, the legend, really, 
             known as Bill Young, in 1974; but it wasn't until I got 
             elected to Congress in 2008 that I realized what a larger-
             than-life true leader this man was and what a wonderful 
             and great mentor he was not just to me and everybody in my 
             freshman class, but we find out everybody that has ever 
             served in this place. He was wise, gentle, kind, honest, 
             thoughtful, and helpful to anyone just for the asking.
               I called him a hero; and until his last days, he would 
             blush, as he was so humble, that anybody would address him 
             like that. What a wonderful man. Never, ever before and 
             probably never again will every man and woman serving us 
             in uniform have as great an advocate as they had in 
             Congressman Young.
               My thoughts and prayers remain with Beverly, his family, 
             and his staff.
               Rest in peace, Bill.

               Mr. CRENSHAW. Thank you.
               Now I yield time to the gentleman from Florida (Mr. 
             Nugent), another colleague and a member of the Rules 
             Committee.

               Mr. NUGENT. Madam Speaker, it is with great humility 
             that I stand here tonight, and I think you have heard a 
             lot of Members tonight talk about Bill Young.
               I think he has made the same impression on so many 
             Members on this side of the aisle and on the other side 
             about his humility, about his true caring about people, 
             about the caring that he has for the members of the 
             military.
               As a father and a parent of three sons who serve in the 
             U.S. Army, what struck me so much about Bill and his wife, 
             Beverly, was their true compassion, particularly his 
             compassion as it relates to those who serve us. Beverly 
             was really the fire behind Bill with regards to a lot of 
             these issues as it relates to our veterans. Bill led the 
             way, but Beverly was right there carrying the flag 
             alongside Bill.
               Madam Speaker, they were a team together. They worked 
             together for the betterment of all, and that is why Bill 
             is such a great American. While you have heard tonight in 
             this House talk about his legacy, you can't replace Bill 
             Young.
               When I first met Bill Young here in this Chamber 3 years 
             ago, he was on that side sitting over there, and he had 
             had a fall and he was injured and he had been at Walter 
             Reed Army Medical Center, and his health continued to 
             decline over the last few years. I came in every day in 
             these Chambers to go see Bill Young because Bill was such 
             a good, kindhearted person. He had a great grip when he 
             shook your hand, and he always had a smile. When you asked 
             him, ``Mr. Chairman, how are you feeling today?,'' it was 
             never about him. You heard that from other Members today. 
             It was always about, ``How are your sons? How are your 
             boys?'' He knew that they were serving in harm's way in 
             Iraq and had been in Afghanistan. He was more worried 
             about them than himself.
               I saw him and his wife, Beverly, on the airplane ride 
             back to Tampa almost every week, and without fail they 
             would offer their better seats to a service man or woman 
             who was in uniform walking down the aisle. They would get 
             up and say, ``Would you sit here?''
               That is just the way they were built.
               Bill and Beverly were a perfect match, and Bill has gone 
             on to a place that we can only aspire to go. I truly 
             believe that Bill is at the right hand of God. Maybe he is 
             talking about appropriations, talking about what is right 
             with America.
               Mr. Chairman, I do appreciate the time you have given 
             all of us to be down here to talk about our good friend, 
             C.W. Bill Young, who will be missed by all.
               God bless America.

               Mr. CRENSHAW. Thank you, Mr. Nugent.
               Our hour is just about over. We could go on for hours, 
             but I think you have all heard tonight that Bill Young was 
             a man that loved his Lord, he loved his wife, he loved his 
             family, he loved his country. You might say it just seems 
             like they don't make them like that any more, but the 
             truth is that they never did.
               Madam Speaker, I yield back the balance of my time.

               Mr. FRELINGHUYSEN. Madam Speaker, I was honored to be 
             asked by the Young family to be among those who delivered 
             eulogies for my departed friend and mentor last week in 
             Largo, FL. I ask unanimous consent that my statement be 
             included in the Record:
               [The text of Mr. Frelinghuysen's eulogy may be found on 
             page 58.]

               Ms. WASSERMAN SCHULTZ. Madam Speaker, I rise today to 
             pay tribute to our late colleague, Congressman Bill Young.
               Congressman Young was an extraordinary public servant 
             whose legacy of caring for his constituents and veterans 
             will not soon be forgotten. I am truly honored to have 
             served alongside him in Congress.
               For more than four decades, Congressman Young championed 
             legislation to improve the lives of Floridians and all 
             Americans and never hesitated to reach across the aisle to 
             find common ground.
               A veteran of the Army National Guard, Congressman Young 
             used his expertise on defense and security issues to 
             advocate for our men and women in uniform. Throughout his 
             legislative career, Congressman Young worked diligently to 
             ensure that our military had access to the training and 
             equipment necessary to be successful in their missions. He 
             also stood by our brave soldiers and their families at 
             home--making sure military retirees had access to health 
             care, defending benefits for military spouses, supporting 
             our wounded veterans, and honoring our fallen heroes who 
             made the ultimate sacrifice.
               Congressman Young was a tireless advocate for Florida. 
             In the 1980s he established the first moratorium on 
             drilling off the west coast of Florida, and fought 
             subsequent efforts to repeal this moratorium. Mr. Young 
             also championed landmark legislation to protect the 
             Everglades, raising his voice to break a deadlock among 
             his colleagues.
               His work to establish the National Marrow Donor Program 
             and support for biomedical research is another example of 
             how Congressman Young's efforts will touch lives many 
             years after his public service.
               I remember shortly after I was first elected to 
             Congress, Mr. Young made it a point to reach out and share 
             his insights with me. During our time together on the 
             Appropriations Committee, I was so fortunate to learn from 
             this experienced Floridian and great statesman.
               Congressman Young's leadership and service to all 
             Floridians will be truly cherished and forever missed. He 
             never stopped working for a better Nation and a better 
             Florida, and for that we should all be thankful. Our 
             Nation has lost a true champion whose legacy will continue 
             to inspire generations to come.

               Mr. MILLER of Florida. Madam Speaker, C.W. Bill Young 
             was a truly great American who served the people of the 
             State of Florida with the utmost degree of 
             professionalism, excellence, and dedication for more than 
             50 years in both the Florida State senate and the U.S. 
             House of Representatives.
               It was truly an honor and a privilege for me to serve 
             with Bill, and it would be impossible to list all the 
             things that I have learned from him in the few short 
             minutes that I have today. Anyone who was fortunate enough 
             to get to know Bill can tell you that there was perhaps no 
             greater advocate for our Nation's veterans and no greater 
             friend to our military than Bill Young.
               Last week I was here on this floor to offer legislation 
             to rename the Bay Pines VA Medical Center after Bill. The 
             enormous outpouring of support, with 379 original 
             cosponsors, was a testament to Bill's tireless work on 
             behalf of veterans and the boundless respect that his 
             colleagues had for him. But, what many may not know is 
             that the current medical center in Bay Pines may not have 
             existed at all if not for Bill's work back in 1976. As 
             President Ford traveled through Florida, Bill joined him 
             aboard Air Force One. Despite opposition from high ranking 
             senior officials in the administration, Bill convinced 
             President Ford that the veterans of Central Florida needed 
             a new facility to make sure that our Nation upheld our 
             solemn promise ``to care for him who shall have borne the 
             battle and for his widow, and his orphan.'' Thanks to Bill 
             that facility was built.
               Madam Speaker, Bill's distinguished service to our 
             Nation, as a veteran and a lawmaker, stands as a shining 
             example for every public servant, and indeed every 
             American, of what can be achieved through hard work, 
             patriotism, and an abiding faith in God. My wife Vicki and 
             I extend our deepest condolences to Bill's wife, Beverly, 
             children, Rob, Billy, and Patrick, and the entire Young 
             family. We will all miss Bill dearly, but we know that his 
             legacy will never be forgotten and that our Nation is that 
             much stronger thanks to his service.
                                            Wednesday, October 30, 2013
               Mr. HOYER. Mr. Speaker, we have just observed a moment 
             of silence for Isaac Skelton. My good friend, Emanuel 
             Cleaver, Ike's good friend, Senator McCaskill, Lacy Clay, 
             and others who are here from the Missouri delegation, I 
             want to rise with them, not in a moment of silence, but in 
             a moment of tribute. We will perhaps have an opportunity 
             to speak for a longer time.
               Yesterday, many of us had the opportunity to participate 
             in a memorial service for Tom Foley. Tom Foley was the 
             Speaker of this House.
               A gentleman spoke who is, I think, one of the most 
             revered Members that has served in this body, Robert 
             Michel. Bob Michel was Tom Foley's friend. Bob Michel was 
             the leader of the Republican side of the aisle. They were 
             friends, colleagues, and cooperated with one another to 
             the benefit of this institution and its Members, and the 
             dean of the House adds, correctly, to the benefit of our 
             country and all its citizens.
               Bob Michel observed the civility that each one of them 
             displayed and the willingness to reach out across the 
             aisle and to make things happen positively for our country 
             and for our citizens.
               We lost another individual within the last weeks, Bill 
             Young, who was a similar personality, and added luster to 
             this Congress by his service and his civility.
               Major Owens was another whom we lost. Four people who 
             made this institution a better place. . . .
               How sad it is that these giants, Tom Foley, Bill Young, 
             Ike Skelton, and, yes, Major Owens, passed from this body, 
             passed from this life, but how joyful it is the 
             extraordinary contributions each of them made to this 
             House, which we should revere and love, the People's 
             House. . . .
                                              Friday, November 15, 2013
               Ms. McCOLLUM. Mr. Speaker, it is with tremendous sadness 
             that I mourn the passing of Chairman C.W. Bill Young--an 
             inspiring colleague and an outspoken champion for the U.S. 
             military. His passing will leave an enormous void in the 
             U.S. House of Representatives where he served for 43 years 
             and was admired and respected for his strength, 
             leadership, and unwavering commitment to military strength 
             and freedom around the world.
               It was my honor to serve with him as a member of the 
             House Appropriations Subcommittee on Defense. As the 
             longest serving Republican in the House and former 
             chairman of the full Appropriations Committee, he was a 
             true inspiration to me and every Member who had the 
             privilege to serve our country alongside him. I will miss 
             Chairman Young as a colleague and a friend.
               I extend my heartfelt prayers and condolences to 
             Chairman Young's family, especially his wife Beverly, who 
             was his constant companion, champion of military families, 
             and a true inspiration in her own right. The U.S. House of 
             Representatives and the United States of America has lost 
             a hero, and he will be sadly missed.
                 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


               
                                 In Loving Memory

                                  C.W. Bill Young



                         December 16, 1930-October 18, 2013

                                    Processional
                     ``God Bless the USA,'' John and Mary Wilson

                                  Memorial Tribute

                                       Welcome
                       Dr. Charlie W. Martin, Pastor Emeritus
                        First Baptist Church of Indian Rocks

                                  Words of Tribute
                  The Hon. John Boehner (OH), Speaker of the House

                                       Reading
                          ``I'm Free,'' Paul K. Steele, MD

                                  Words of Tribute
                                 GEN James F. Amos,
                       Commandant, United States Marine Corps

                                        Song
                               ``My Way,'' Ryan Julian

                                  Words of Tribute
                    The Hon. Steny Hoyer (MD), Member of Congress

                                 Remarks and Prayer
                   Rev. Robert Wagenseil, Calvary Episcopal Church

                                  Words of Tribute
               The Hon. Rodney Frelinghuysen (NJ), Member of Congress

                                       Reading
                   ``Live a Life that Matters,'' Mrs. Amy Epstein

                                  Words of Tribute
                              The Hon. Gordon England,
                       Former U.S. Deputy Secretary of Defense
                                        Song
                        ``Softly & Tenderly,'' Julie Pigsley

                                   Pastoral Moment
                       Dr. Charlie W. Martin, Pastor Emeritus

                                        Song
                        ``Grandpa,'' David and Susie McMillan

                                 Family Introduction
                                     David Jolly

                                    Family Moment
                      Robert Young, Billy Young, Patrick Young,
                                  CPL Josh Callihan

                                        Song
              ``How Can I Live Without You,'' David and Susie McMillan

                                   Closing Remarks
                       Dr. Charlie W. Martin, Pastor Emeritus

                                     Recessional
                           ``Going Home,'' Susie McMillan

                             Private Interment to Follow
                           When Tomorrow Starts Without Me

                          When tomorrow starts without me,
                              and I'm not there to see;
                     If the sun should rise and find your eyes,
                            all filled with tears for me.

                          I wish so much you wouldn't cry,
                              the way you do each day,
                         while thinking of the many things,
                                we didn't get to say.

                            I know how much you love me,
                               as much as I love you;
                         And each time that you think of me,
                            please know I miss you, too.

                        But when tomorrow starts without me,
                              please try to understand,
                       that an Angel came and called my name,
                              and took me by the hand.

                          The Angel said a place was ready,
                                 in heaven up above;
                         And that I'd have to leave behind,
                               all those I truly love.

                             I had so much to live for,
                                 so much yet to do.
                            It seemed almost impossible,
                               that I was leaving you.

                          When tomorrow starts without me,
                            don't think we're far apart;
                           for every time you think of me,
                            I'm right here in your heart.
               Hon. John Boehner, Speaker of the House. The passing of 
             our friend and comrade Bill Young brings us here to 
             celebrate his life, and to offer our comfort to Beverly. 
             Beverly, on behalf of all my colleagues, and all the 
             officers and staff of the House, thank you for letting us 
             share this moment with you and your family.
               Your loss is ours, it's just that simple. Here was a man 
             who loved, in this order, God, his family, his country, 
             and the House Appropriations Committee.
               Yes, it was greedy of us to gripe when Bill gave word 
             that he wouldn't run again. We did it anyway.
               After all, we owed the man everything, and we had the 
             chance to tell him that--to give our thanks, to let him 
             know the privilege was all ours.
               A former President of the United States--a Commander in 
             Chief--called him last week to say the same.
               Why? I'll tell you why: Because Bill Young wasn't just a 
             leading man of the House--he was the House. How many times 
             did his grace preserve decorum, his word save an important 
             measure, or his mere presence make the common into the 
             exceptional?
               Especially when it concerned the well-being of the men 
             and women who wore our uniform, and the defense of this 
             Nation. And the defense of the House itself.
               Bill did so much for the institution. Perhaps his 
             greatest gift to the body was the simplest one, and that 
             was his fundamental sense of decency.
               When you think about all the tall orders he fulfilled--
             all the people he had to wrangle--and yet somehow, he 
             never uttered a cross word. Never acted in bad faith. I 
             always really admired him for it.
               Too often, we are quick to condemn and slow to be 
             humble. As if kindness is a weakness in these tough, 
             bottom-line times.
               We know that just isn't so. We can say that because 
             generations of Americans saw Bill Young come from 
             nothing--a shack--to become a legend in the House of the 
             People. They watched him do so much good after being given 
             so little.
               There is an old saying: Service is the rent we pay for 
             the space we occupy here on Earth. Well if that's true, 
             then the gentleman from Florida had paid in full a long 
             time ago.
               We were able to tell him these things. Nothing was left 
             unsaid. Except, of course, farewell.
               The night Bill left us, I said it would be impossible to 
             imagine the House without him. What now? Who among us will 
             carry on this man's work?
               Having thought about it, I would just suggest you look 
             at the person next to you. Because no one man or woman can 
             fill such shoes. It will take all of us.
               So, Mr. Chairman: no need to call the roll on this one. 
             The vote is unanimous. We will see it done.
               For now, goodbye and God bless you, my friend.

               General James F. Amos, Commandant, U.S. Marine Corps. 
             Beverly, family, ladies and gentlemen, over the past week, 
             I've been approached by many senior leaders and colleagues 
             in the military who admired Chairman Young. To a person, 
             they speak of his passing as a tragedy of national 
             proportions.
               They expressed an appreciation for the quiet, reserved 
             way he'd get business done, of how he never sought credit 
             for himself. Rather, he just wanted to make sure that 
             America had the soldiers, sailors, airmen, and marines 
             that it needed to defend our freedom, both at home and 
             around the world.
               Bill Young knew what it meant to persevere. He survived 
             a hunting accident, a plane crash, and more than 50 years 
             as a leader in American politics, and he did it all while 
             maintaining integrity, a strong sense of dignity and 
             honor, and a compassion for his fellow man, especially 
             those less fortunate.
               Chairman Bill Young did more to serve our Nation and its 
             people than just about anybody I know. While representing 
             the people of Florida for more than a half century, he 
             gave more than just years, he gave of himself to touch the 
             lives of the people he served.
               What mattered most in his life was not the accumulation 
             of riches and fame. Chairman Young turned his back on 
             that. What mattered most to him was to live honestly, live 
             selflessly, and to live meaningfully. That we are 
             remembered for what we did and who we have helped along 
             the way is what mattered to him.
               Bill Young wore our Nation's cloth himself when he 
             served as a soldier in the Army National Guard and later 
             in the Reserve. From this experience, and from his many 
             visits to troops around the world as a Member of Congress. 
             he knew that a military life was full of challenges, 
             hardships, and personal sacrifice.
               He made a point of stepping in and helping our young men 
             and women in the military and their families whenever and 
             wherever he could.
               I'm reminded of a story of one of my marines, Major 
             Brandon Graham, who was having a great deal of difficulty 
             getting a surgery authorized for his daughter Kaelyn who 
             had a congenital heart defect that was threatening her 
             life.
               You can imagine the weight of helplessness her parents 
             felt grinding down on their souls. They had a precious 
             little girl with a serious problem that they could not fix 
             themselves. Brandon was fighting with Tricare to get 
             authorization for a heart transplant but the appeals 
             continued to build, ever delaying the process. There was 
             no end in sight.
               The Grahams were stationed at our Special Operations 
             Command at the time, and somehow Chairman Young, as only 
             he could, caught wind of the plight of the parents. Before 
             the sun set that day, Kaelyn's procedure was approved and 
             she was fast tracked for her heart surgery.
               Thanks to Chairman Young, today she is a healthy little 
             girl attending elementary school, all because the Chairman 
             cared enough to help.
               This is just one of the thousands of acts of kindness he 
             performed that touched the lives of servicemembers and 
             their families. Quite frankly, he did them so often they 
             became routine business for his staff.
               Chairman Young, along with his soulmate Beverly, were 
             champions for our wounded warriors. He and Beverly 
             frequently visited our wounded servicemembers at Walter 
             Reed and Bethesda, and once flew an injured marine 
             corporal back from Kuwait on his own plane.
               The young corporal had been shot in the back by a light 
             machine gun during a training accident in Kuwait, and it 
             was questionable whether he would survive the wounding.
               Chairman Young was with the young man during his initial 
             surgery in Kuwait and then on into Germany where he 
             received subsequent treatment, and finally at Bethesda.
               Our young marine had no real family or home, so Chairman 
             Young took him in, treated him like a son, and the entire 
             Young family encouraged the corporal during his recovery. 
             Eventually he did get better, and Bill Young helped him 
             get a job with the Idaho Veterans Administration. The 
             corporal is now fully recovered and just recently married.
               Chairman Young got involved with the lives of our troops 
             because he never took freedom for granted.
               He knew that if America was to remain the land of the 
             free, that Americans must take care of their brave, both 
             while they are deployed, and after the sounds of battle 
             have long echoed from the headlines.
               General Chuck Krulak, our former commandant, told me 
             just the other day that Chairman Young personified our 
             core values of honor, courage, and commitment, and that 
             what he appreciated most in Chairman Young was his 
             fidelity--his faithfulness. Chuck said that he knew that 
             when he was heading into a fight on the Hill, he could 
             always count on Chairman Young to be right there by his 
             side, covering his flank.
               Earlier today, I was privileged to make Chairman Young 
             an honorary marine. While he was physically absent during 
             my remarks to Beverly and their family, he was most 
             assuredly there in spirit. To the men and women who wear 
             my cloth, this is the very highest honor that we could 
             bestow upon this great warrior. While his heart was always 
             with his marines, he is now officially one of us.
               You may be wondering about the afterlife and where 
             precisely in Heaven Bill Young's soul might be found 
             resting today--well, let me allay any anxiousness once and 
             for all.
               As marines, we know that the answer to that question can 
             be found in the last stanza of our beloved Marine's Hymn. 
             ``If the Army and the Navy ever look on Heaven's scenes, 
             they will find the gates are guarded by United States 
             Marines!'' Bill Young is on duty ladies and gentlemen. He 
             has the watch.
               To Beverly and the entire Young family, there are no 
             words sufficient to ease your loss. Our hope is that 
             you'll find comfort from the love and admiration of all 
             who have gathered here this afternoon. America has lost a 
             great public servant, liberty has lost a great patriot, 
             and we who are left behind have lost a great friend.

               Hon. Steny Hoyer, Minority Whip, Member of Congress. We 
             have come here today to bid farewell to our friend and 
             colleague, C.W. Bill Young. Over the past several days, we 
             have all heard about his accomplishments, of which there 
             were a great many, both as a legislator and as a family 
             man. But Bill was more than the sum of his achievements.
               He was a man of character, of decency, of compassion, of 
             integrity, and of great patriotism. He was a gentleman and 
             a dear friend. He was a skilled legislator and a respected 
             leader in the House and for our country.
               We will remember him not only for his extraordinary 
             qualities but for how he used them to enhance and enrich 
             his country and all of us. We remember him for the depth 
             and goodness of his character. For the generosity of his 
             spirit. And for the patience he displayed and the 
             compassion he practiced.
               The hardness of his experiences as a child in a 
             Pennsylvania coal mining town, where he was the victim of 
             a shooting accident and where his family's house was 
             destroyed in a flood, contributed to the tenderness of 
             Bill's warm and open heart. He lived his life according to 
             the words of Romans 12:15-16, which read: ``Rejoice with 
             those who rejoice; weep with those who weep. Live in 
             harmony with one another.''
               Bill found joy in his life of service, promoting harmony 
             among those who served alongside him and feeling the pain 
             of those who were in need of help. We remember Bill for 
             his humility that was so genuine. For the wisdom he 
             possessed and the common sense he exercised. For the 
             legislative skill he displayed and the life of integrity 
             he lived. And we remember him for his commitment to 
             Beverly and his family that was his constant guide.
               We will remember him for his smile that was so welcoming 
             and kind. For his eagerness to listen attentively to 
             constituents and colleagues alike. All of these set Bill 
             Young apart.
               We will never forget his love and care for those who 
             protect and defend our Nation, and for his partnership 
             with Beverly, who was his only peer in caring for our 
             wounded warriors. We will remember Bill for his politeness 
             and consideration of his colleagues in committee and on 
             the floor, even at times of conflict and confrontation.
               All these traits and more made Bill Young beloved by me 
             and by all who knew him. They made him a very special man 
             who lived Lincoln's admonition of ``charity for all and 
             malice toward none.'' It was in his service in office that 
             Bill put all of his traits to work for the benefit of 
             others.
               None of us ever questioned for a moment the depth and 
             sincerity of Bill's love for the people he was honored to 
             represent--not just the people of this district but all 
             Floridians and all Americans.
               Former Speaker of the House, James ``Champ'' Clark, once 
             said: ``The best plan for a constituency to pursue is to 
             select a man of good sense, good habits, and perfect 
             integrity, young enough to learn, and reelect him so long 
             as he retains his faculties and is faithful to his 
             trust.''
               The people of Pinellas County took that advice to heart 
             when they sent Bill Young to Congress 42 years ago and had 
             the good sense to keep sending him back ever since. I 
             thank them for sending Bill to all of us who came to know 
             him and cherish his friendship and his example.
               Here, in the community he loved with such devotion, 
             surrounded by his family and the people he represented in 
             office for half a century, we pay him a heartfelt tribute. 
             It will not be--nor should it be--our last.
               May God give comfort and solace to Beverly and the Young 
             family, and may God bless and keep alive the legacy and 
             spirit of our friend, Bill.

               Hon. Rodney Frelinghuysen, Vice Chairman of the Defense 
             Appropriations Subcommittee, Member of Congress. From the 
             back row of the House Chamber, Congressman C.W. ``Bill'' 
             Young was able to see across the House floor. For over 40 
             years, through the terms of 8 Presidents and 16 
             Secretaries of Defense, he watched Members of both parties 
             meet and greet each other as both Democratic and 
             Republican Speakers presided.
               From that prized vantage point, he could also keep tabs 
             on his longtime Defense Appropriations Committee 
             counterpart and partner, Jack Murtha, sitting opposite him 
             in the back row of the Democratic side of the aisle known 
             as the Pennsylvania section.
               Jack Murtha left us a few years ago, but Bill soldiered 
             on. In recent months he used a walker or sat in a 
             wheelchair taking greetings from colleagues from both 
             sides of the aisle. He was beloved--engaging everyone with 
             a smile and handshake, however he might have felt on that 
             particular day. He was always gracious, well-humored, and 
             accommodating to freshmen and old-timers alike.
               It is well known that Bill Young chaired the House 
             Appropriations Committee, and twice, its Defense 
             Subcommittee. He also served as ranking member when the 
             majority changed hands. He loved our committee, constantly 
             saluted our members for their dedication and fully 
             expected each one to support the process, limit debate, 
             support open rules, and with a minimum of partisanship do 
             the Nation's business.
               A copy of the Constitution was ever-present in his 
             pocket, to remind all of Article 1, Section 9, Clause 7. 
             For those of you unfamiliar with this provision, I suggest 
             you look it up!
               On the Defense Subcommittee, he always spoke of the 
             dedication of members of our Armed Forces and the 
             sacrifice of their families and our committee's obligation 
             to serve them.
               He would say at every meeting: our soldiers, sailors, 
             marines and air men and women are the ones doing the work 
             of freedom--the ones who work every day to make the world 
             safer for Americans and our friends and more dangerous for 
             those who would do us harm.
               That's why Bill Young would often state on the House 
             floor, ``there is no room for politics in our bill''--we 
             must always be there for all those who serve and 
             sacrifice.
               As you know, Bill and Beverly visited the old Walter 
             Reed Army Medical Center, the old Bethesda Naval, and the 
             newly expanded Bethesda National Military Medical Center 
             just about every week.
               They were quiet visits, executed without fanfare or 
             press release.
               Each time, they met with our wounded warriors and their 
             families, adopting their hardships and often underwriting 
             their expenses--helping them meet every type of crisis: 
             food, travel, rent, inattention from medical personnel or 
             hospital administrators.
               The Youngs confronted military brass whenever necessary 
             in order to get those with physical and mental wounds the 
             best care and support possible. They were fierce in their 
             determination.
               Wherever they were with the troops, the Youngs took 
             names, called their families, and carried grievances to 
             the top to be resolved. This was their SOP, their passion, 
             and woe to those who underestimated their dedication and 
             resolve.
               You might say from time to time they rang a few chimes 
             to get a tough situation resolved. In fact, I am confident 
             that there are many officers with us here today who would 
             vouch for that. I won't ask for a show of hands, but you 
             know who you are.
               Typical was the story Bill told us once--about a 
             Saturday lunch at a small restaurant in Alexandria, VA--an 
             area teeming with military personnel, both on and off 
             duty. As Beverly left the table to greet another soldier 
             or marine, Bill was presented with the meal check and was 
             stunned--$171 for a tuna fish sandwich and a burger and 
             two Cokes?! The waitress calmly replied that ``It's not 
             just a sandwich and a burger, sir. Your wife volunteered 
             you to pay for that soldier at that table and that marine 
             family over there and the sailor in the corner and a 
             couple that have already left.''
               I also know that, over the years, many military families 
             were pleasantly surprised when their grocery tab was 
             covered by Bill or Beverly Young standing behind them in 
             the supermarket checkout line.
               Bill and my late father served together for a few years 
             before my father retired from Congress in 1974. With that 
             early tie, he has been a friend and mentor to me since my 
             arrival.
               I know these personal connections may not count for much 
             these days, but were it not for Bill, it is likely that I 
             would not be serving on the Defense Appropriations 
             Committee or honored to be speaking here today.
               Nor would I have had the opportunity to occupy the back 
             row of the House Chamber--from which Bill Young had an 
             expansive view of American history as few others ever did 
             or as few others ever will.
               He personally made much of that history, directing an 
             appropriations process that actually worked, despite its 
             procedural flaws and partisan challenges.
               It is well documented that his strong support for our 
             national security made America the envy of the world and 
             improved the lives of our servicemembers and their 
             families in more ways than they will ever know and assured 
             that their sacrifice will never be forgotten.
               A reverent hush has now fallen over that back row of the 
             House Chamber.
               The Congress has lost a leader.
               The Nation has lost an experienced authority on national 
             security.
               Our Armed Forces have lost a valuable partner.
               And whether they know it or not, the troops and their 
             families have lost one of the best friends they ever had.
               We all have lost a great, principled man who lived a 
             life from which we all could learn.
               May the tributes and prayers that have flowed in recent 
             days be a source of comfort and strength to you, Beverly, 
             and to Billy, Patrick, and Rob, and the rest of the Young 
             family and his loyal, long-serving staff--past and 
             present--both in his personal offices in Washington and 
             Florida and the Defense Committee's staff--the unsung 
             majority and minority professionals who make the committee 
             work.
               Ladies and gentlemen, the sun is setting on an American 
             life of service. Bill Young, now an honorary Marine, may 
             be gone, but he will never be forgotten.
               From the back row of the House Chamber, Bill Young had a 
             front row seat to history--a history he helped shape. For 
             that, our Nation is a stronger and better place.

               Hon. Gordon England, Former U.S. Deputy Secretary of 
             Defense. Bill Young was my friend. Actually, he was more 
             than my friend. Life is interesting in that people come 
             and go through our lives, hundreds, thousands, maybe tens 
             of thousands of people we know that pass through, and 
             sometimes we see them again, and sometimes we don't. But 
             there are certain people that you hold onto, and Bill and 
             I held onto each other. Bill and I would see each other, 
             we could be at the other end of the hall, and if we saw 
             each other, we would raise our hands, and we would laugh 
             and smile and when we got closer we would embrace, and we 
             just had a special relationship and even on the phone when 
             we spoke it was a joyful moment.
               Bill and I became very close after the events of 9/11 
             and after our military was deployed to Afghanistan and 
             later to Iraq, and you've heard how Bill with Beverly went 
             to Bethesda and Walter Reed many times. It's hard to 
             remember those times because, early on, we didn't have the 
             USO we have today and the Armed Forces foundation or the 
             Fisher Houses. Families came to the hospitals with 
             spouses, or sons, sometimes shot, perhaps in the head or 
             they lost their legs and the families were alone in a 
             strange city, sometimes with no money and no support.
               But Bill and Beverly were there. And they were not just 
             there, they became part of their journey. They became part 
             of those families and they helped their families on their 
             journey. By the way, they maintain a lot of those 
             relationships today. Bill became part of the journeys of 
             hundreds of families of the fallen. He eased their pain, 
             and he made their lives better. It was his sacred 
             pilgrimage and also Beverly's.
               This is how Bill lived his life: helping others. This is 
             why Bill's death is so painful. Because he is no longer 
             part of our journey. We now have a void in our journey to 
             life everlasting. Now the good news for me is that I know 
             that one day I will see Bill again when I pass through 
             this life into the next life, and I will see Bill in the 
             distance, and he will be waving and smiling and I'll be 
             smiling back, and we will embrace, and we will spend our 
             time together in life everlasting. I know that Bill would 
             want me to say to the military that he loves so much, he 
             would want me to say God bless to all those that serve, 
             especially the wounded and their families and the fallen 
             and their families, and all who stand on watch today.

               Robert Young. For 2 of the first 4 years of my life, I 
             did not have a father. Bill adopted me. I came along with 
             my mom. I'm a marriage counselor right now, a clinical 
             psychologist, and I don't see very many men who are 
             willing to take on a 4-year-old kid. It meant a lot to me. 
             If it were not for him, I wouldn't have a father at all.
               He taught me a lot of stuff. He didn't talk as much as a 
             lot of people do. He was kind of a quiet guy. The most 
             important thing that he taught me, I think, is balance. 
             Everybody knows he's a Republican. He taught me that you 
             should always listen. He always said, ``You only have one 
             mouth and two ears.'' He said even when somebody is wrong, 
             you should at least hear their point of view.
               He was a pretty balanced guy. I don't think a lot of 
             people necessarily know that or see that. He taught me to 
             understand that there are different ways of seeing things, 
             and I apply that now in my work as a marriage counselor, 
             and every day that I go to work, people benefit from the 
             way that I was raised. You know, in marriage counseling, 
             pretty much everyone wants to kill each other, and I have 
             to spend a lot of time helping people understand that 
             there's two sides to a story.
               If it weren't for my dad, I wouldn't realize that, I 
             wouldn't know that. He always taught me that extremism is 
             not a good thing. It helps me, and I think it helps my 
             son, and one day it will help my daughter. His work will 
             carry on, strangely in a completely different arena than 
             he was ever involved in. He touches people's lives every 
             day in that way. I don't think he ever really knew that. I 
             don't know if he'll ever know that. But I want you to know 
             that.

               Bill Young II. My dad was for 30 years my best friend, 
             my mentor, my hero, someone I could rely on. We had phone 
             calls almost every day. If nothing else, to talk about 
             sports scores or to ask what was going on in the world. I 
             don't know if he knew that I was calling for advice. I 
             think he thought I was just calling to check in on him and 
             make sure he was okay. But every conversation I had with 
             him, I was taking advice from him. Because he was one of 
             the best men this world will ever know. He had the 
             composure and knowledge to be levelheaded and not to make 
             harsh decisions, and to use your brain and your heart when 
             making decisions. I am just blessed that my father had so 
             many years to get to know my son, who is sleeping over 
             there, who is grandpa's namesake, he's C.W. III and my 
             newest son Easton . . .
               Mothers and sons can always have their issues. Any kids 
             can have their issues. But at the end of the day, my 
             father loved my mother more than anything in this world 
             aside from his grandkids. For several years, 24/7, around 
             the clock, every day, my mom took care of him. If she had 
             not been there to take care of him in the way that she 
             did, not only would he not have been able to go to 
             Washington and do his job, he would not have been able to 
             be with his kids and grandkids. He would regularly tell my 
             brothers and I, nobody but Beverly and God will ever know 
             how much she's done for me. So for what we do know of what 
             you did for him, Mom, thank you, thank you for giving him 
             to us and for allowing our kids to have more time with him 
             . . . Anyone who knew him respected him, and anyone he 
             met, he respected . . . I know my dad is listening. I want 
             him to know that the meaning of respect is you, Dad. You 
             are respect.

</pre></body></html>
